1a
FOR PUBLICATION
UNITED STATES COURT OF APPEALS FOR
THE NINTH CIRCUIT
KRISTEN BIEL,
Plaintiff-Appellants,
v.
ST. JAMES SCHOOL, A CORP., a
California non-profit corporation; DOES, 2-50, inclusive;
ST. JAMES CATHOLIC SCHOOL,
a California non-profit corporation; DOE 1,

No. 17-55180
D.C. No.
2:15-cv-04248TJH-AS

OPINION

Defendants-Appellees.
Appeal from the United States District Court
for the Central District of California
Terry J. Hatter, District Judge, Presiding
Argued and Submitted July 11, 2018
Pasadena, California
Filed December 17, 2018
Before: D. Michael Fisher,∗ Paul J. Watford,
and Michelle T. Friedland, Circuit Judges.
Opinion by Judge Friedland;
Dissent by Judge Fisher

∗

The Honorable D. Michael Fisher, United States Circuit
Judge for the U.S. Court of Appeals for the Third Circuit, sitting
by des-ignation.

2a
SUMMARY**
Employment Discrimination
The panel reversed the district court’s summary
judgment in favor of the defendant and remanded in
an employment discrimination action under the Americans with Disabilities Act.
Based on the totality-of-the-circumstances test articulated by the Supreme Court in Hosanna-Tabor
Evangelical Lutheran Church & School v. E.E.O.C.,
565 U.S. 171 (2012), the panel held that the First
Amendment’s ministerial exception to generally applicable employment laws did not bar a teacher’s claim
against the Catholic elementary school that terminated her employment. The panel concluded that she
did not qualify as a minister for purposes of the exception. The panel considered whether the school held the
teacher out as a minister, whether her title reflected
ministerial substance and training, whether she held
herself out as a minister, and whether her job duties
included important religious functions.
Dissenting, Judge Fisher wrote that, considering
all of the circumstances of the teacher’s employment,
she was a “minister” for the purposes of the ministerial
exception because of the substance reflected in her title and the important religious functions she performed.

**This

summary constitutes no part of the opinion of the court. It
has been prepared by court staff for the convenience of the reader.

3a
_________________________________________________
COUNSEL
Andrew S. Pletcher (argued), Cathryn G. Fund, and
Joseph M. Lovretovich, JML Law, Woodland Hills,
California, for Plaintiff-Appellant.
Jack Steven Sholkoff (argued), Ogletree Deakins Nash
Smoak & Stewart P.C., Los Angeles, California; Veronica Fermin and Richard Chen, Ogletree Deakins
Nash Smoak & Stewart P.C., Costa Mesa, California;
for Defendant-Appellee.
Susan Ruth Oxford (argued), Attorney; Barbara L.
Sloan, Acting Assistant Attorney General; Jennifer S.
Goldstein, Associate General Counsel; James L. Lee,
Deputy General Counsel; Office of the General Counsel, Equal Employment Opportunity Commission,
Washington, D.C.; for Amicus Curiae Equal Employment Opportunity Commission.

4a
_________________________________________________
OPINION
FRIEDLAND, Circuit Judge:
Plaintiff Kristin Biel was fired from her fifth grade
teaching position at St. James Catholic School after
she told her employer that she had breast cancer and
would need to miss work to undergo chemotherapy.
She now appeals the district court’s summary judgment ruling that her subsequent lawsuit against St.
James under the Americans with Disabilities Act
(“ADA”) was barred by the First Amendment’s “ministerial exception” to generally applicable employment
laws. We hold that, assessing the totality of Biel’s role
at St. James, the ministerial exception does not foreclose her claim. We therefore reverse and remand for
further proceedings.
I.
Biel received a bachelor’s degree in liberal arts and
a teaching credential from California State University, Dominguez Hills. After graduating in 2009, Biel
worked at two tutoring companies and as a substitute
teacher at several public and private schools. St.
James, a Roman Catholic parish school within the
Archdiocese of Los Angeles, hired Biel in March 2013
as a long-term substitute teacher. At the end of that
school year, St. James’s principal hired Biel as the
school’s full-time fifth grade teacher. Biel is herself
Catholic, and St. James prefers to hire Catholic teachers, but being Catholic is not a requirement for teaching positions at St. James. Biel had no training in
Catholic pedagogy at the time she was hired. Her only
such training was during her tenure at St. James: a
single half-day conference where topics ranged from

5a
the incorporation of religious themes into lesson plans
to techniques for teaching art classes.
Biel taught the fifth graders at St. James all their
academic subjects. Among these was a standard religion curriculum that she taught for about thirty
minutes a day, four days a week, using a workbook on
the Catholic faith prescribed by the school administration. Biel also joined her students in twice-daily prayers but did not lead them; that responsibility fell to
student prayer leaders. She likewise attended a
school-wide monthly Mass where her sole responsibility was to keep her class quiet and orderly.
Biel’s contract stated that she would work “within
[St. James’s] overriding commitment” to Church “doctrines, laws, and norms” and would “model, teach, and
promote behavior in conformity to the teaching of the
Roman Catholic Church.” St. James’s mission statement provides that the school “work[s] to facilitate the
development of confident, competent, and caring Catholic-Christian citizens prepared to be responsible
members of their church[,] local[,] and global communities.” According to the school’s faculty handbook,
teachers at St. James “participate in the Church’s mission” of providing “quality Catholic education to . . .
students, educating them in academic areas and in . . .
Catholic faith and values.”1 The faculty handbook further instructs teachers to follow not only archdiocesan
The dissent quotes extensively from the faculty handbook to
support its arguments about the extent of Biel’s religious role. It
does so as if there is no dispute that the handbook imposed binding requirements on Biel’s employment and provided an accurate
depiction of her duties. But St. James did not rely on the faculty
handbook in support of its motion for summary judgment, which
might have been because the handbook’s force and effect were
contested—it is at least unclear what role, if any, the handbook
1

6a
curricular guidelines but also California’s publicschool curricular requirements.
In November 2013, Biel received a positive teaching evaluation from St. James’s principal, Sister Mary
Margaret, measuring her performance in aspects both
secular (e.g., her lesson planning strategies) and religious (e.g., displaying Church symbols in her classroom). The principal’s written evaluation praised
Biel’s “very good” work promoting a safe and caring
learning environment, noted that she adapted her
teaching methods to accommodate her students’ varied learning styles, and observed that she encouraged
social development and responsibility. The principal
also identified some areas for improvement: for instance, Biel’s students had many items on their desks
and two students were coloring in the pages of their
books.
Less than six months after that evaluation—which
was her first and only formal evaluation at St.
James—Biel learned that she had breast cancer and
informed the school administration that her condition
required her to take time off to undergo surgery and
chemotherapy. Sister Mary Margaret told Biel a few
weeks later that she would not renew Biel’s contract
for the next academic year, citing her belief that Biel’s
“classroom management” was “not strict” and that “it
played at the school and whether it actually reflected what teachers at the school were expected to do in practice. For example,
Biel’s employment agreement referenced “policies in the faculty
handbook,” but said that “the policies do not constitute a contractual agreement with [Biel].” At this stage of the proceedings, any
factual uncertainties must be viewed in Biel’s favor. See Fresno
Motors, LLC v. Mercedes Benz USA, LLC, 771 F.3d 1119, 1125
(9th Cir. 2014).

7a
was not fair . . . to have two teachers for the children
during the school year.”
Biel sued St. James in the United States District
Court for the Central District of California, alleging
that her termination violated the ADA, which prohibits employment discrimination based on disability. See
42 U.S.C. § 12112(a). Following discovery, St. James
moved for summary judgment, arguing that the First
Amendment’s ministerial exception to generally applicable employment laws barred Biel’s ADA claims. The
district court agreed and granted summary judgment
for St. James.
II.
We review de novo a district court’s grant of summary judgment. Brunozzi v. Cable Commc’ns, Inc., 851
F.3d 990, 995 (9th Cir. 2017). We also apply de novo
review to determinations of law as well as to mixed
questions of law and fact that implicate the Religion
Clauses. Puri v. Khalsa, 844 F.3d 1152, 1157 (9th Cir.
2017).
III.
A.
Religious organizations enjoy a broad right to select their own leaders. The Supreme Court confirmed
in Hosanna-Tabor Evangelical Lutheran Church &
School v. E.E.O.C. that, as part of that right, the First
Amendment’s Establishment and Free Exercise
Clauses “bar the government from interfering with the
decision of a religious group to fire one of its ministers.” 565 U.S. 171, 181 (2012); see also U.S. Const.
amend. I. The Court grounded this principle in a
longstanding historical and jurisprudential concern

8a
with “political interference” in “matters of church government as well as those of faith and doctrine.” Id. at
184, 186 (citations omitted). When the ministerial exception applies, it categorically bars an employee’s suit
under otherwise generally applicable employment
laws. Puri v. Khalsa, 844 F.3d 1152, 1164 (9th Cir.
2017). When the ministerial exception does not apply,
“courts [may] decide disputes involving religious organizations,” so long as they, in accordance with the
Religion Clauses, proceed “‘without resolving [any] underlying controversies over religious doctrine.’” Id.
(quoting Maktab Tarighe Oveyssi Shah Maghsoudi,
Inc. v. Kianfar, 179 F.3d 1244, 1248 (9th Cir. 1999)).
These principles guide our analysis here.
Biel does not dispute that St. James, as a part of
the Roman Catholic Archdiocese of Los Angeles, is the
type of religious organization that could potentially invoke the ministerial exception as a defense. The disagreement here is over whether Biel’s employment fell
within the exception.
In Hosanna-Tabor, the Supreme Court expressly
declined to adopt “a rigid formula for deciding when an
employee qualifies as a minister,” and instead considered “all the circumstances of [the plaintiff’s] employment.” 565 U.S. at 190. Hosanna-Tabor is the only
case in which the Supreme Court has applied the ministerial exception, so its reasoning necessarily guides
ours as we consider the circumstances here.
Hosanna-Tabor involved a former teacher at a Lutheran school, Cheryl Perich, who alleged that the
school fired her in violation of the ADA after she was
diagnosed with narcolepsy. Id. at 178-79. The Court
focused on four major considerations to determine if

9a
the ministerial exception applied: (1) whether the employer held the employee out as a minister,
(2) whether the employee’s title reflected ministerial
substance and training, (3) whether the employee held
herself out as a minister, and (4) whether the employee’s job duties included “important religious functions.” Id. at 192. Based on the totality of the circumstances, the Court concluded that Perich qualified as
a minister for purposes of the ministerial exception.
First, the evangelical Lutheran church that operated the school in Hosanna-Tabor “held Perich out as
a minister, with a role distinct from that of most of its
members.” Id. at 191. Its congregation granted her the
title of “Minister of Religion, Commissioned” after
electing her to that position. Id. In conjunction with
that commission, the “congregation undertook to periodically review Perich’s ‘skills of ministry’ . . . and to
provide for her ‘continuing education as a professional
person in the ministry of the Gospel.’” Id.
Second, to be eligible to become a commissioned
minister, Perich needed a substantial amount of religious training. She “had to complete eight college-level
courses in subjects including biblical interpretation,
church doctrine, and the ministry of the Lutheran
teacher” and pass an oral examination by a Lutheran college faculty committee. Id. She also had to obtain the
endorsement of her local Lutheran synod by submitting letters of recommendation, a personal statement,
and “written answers to various ministry-related
questions.” Id. These training requirements took
Perich six years to complete.
Because of her status as a commissioned minister,
Perich was eligible for, and succeeded in obtaining, a
special category of teaching position: that of a “called”

10a
teacher. Id. at 177-78. In contrast to “lay” teachers
who had one-year renewable terms, called teachers
had open-ended contracts that “could be rescinded
only for cause and by a supermajority vote of the congregation.” Id at 177. The school hired lay teachers
only when called teachers were unavailable, even
though all teachers performed the same duties in the
classroom. Id.
Third, Perich “held herself out as a minister of the
Church.” Id. at 191. She claimed a federal tax benefit
reserved for employees “earning their compensation”
in “the exercise of the ministry.” Id. at 192. And she
described herself as “feel[ing] that God [was] leading
[her] to serve in the teaching ministry.” Id.
Fourth, Perich had an “important role in transmitting the Lutheran faith to the next generation.” Id. at
192. In addition to teaching her fourth grade students
various secular and religious subjects, Perich led them
in prayer three times a day. Id. Twice a year, she also
led a school-wide chapel service at which she “cho[se]
the liturgy, select[ed] the hymns, and deliver[ed] a
short message based on verses from the Bible.” Id.
Only after describing all of these aspects of Perich’s
position did the Supreme Court hold: “In light of these
considerations—the formal title given Perich by the
Church, the substance reflected in that title, her own
use of that title, and the important religious functions
she performed for the Church—we conclude that
Perich was a minister covered by the ministerial exception.” Id.
Biel, by contrast, has none of Perich’s credentials,
training, or ministerial background. There was no religious component to her liberal studies degree or

11a
teaching credential. St. James had no religious requirements for her position. And, even after she began
working there, her training consisted of only a halfday conference whose religious substance was limited.
Unlike Perich, who joined the Lutheran teaching ministry as a calling, Biel appears to have taken on teaching work wherever she could find it: tutoring companies, multiple public schools, another Catholic school,
and even a Lutheran school.
Nor did St. James hold Biel out as a minister by
suggesting to its community that she had special expertise in Church doctrine, values, or pedagogy beyond
that of any practicing Catholic. St. James gave her the
title “Grade 5 Teacher.” Her employment was at-will
and on a yearlong renewable contract, unlike Perich’s
unlimited term that could only be ended by a supermajority vote of the congregation. The dissent’s analysis of Biel’s title focuses on her duties at the school—
as opposed to her education, qualifications, and employment arrangement—and thus improperly collapses considerations that the Supreme Court treated
separately.2 Looking only to what the Court treated as
relevant to evaluating a job title, there is nothing religious “reflected in” Biel’s title. Hosanna-Tabor, 565
U.S. at 192. In contrast to Perich’s “Minister of Religion, Commissioned,” and “called” teacher titles, it

The dissent also ascribes the title “Catholic school educator” to
Biel, but nowhere in St. James’s briefing or summary judgment
paper has St. James ever suggested that this general description
of its employees was part of Biel’s title.
2

12a
cannot be said that Grade 5 Teacher “conveys a religious—as opposed to secular—meaning.”3 Conlon v.
InterVarsity Christian Fellowship, 777 F.3d 829, 83435 (6th Cir. 2015).
Also in contrast to Perich, nothing in the record indicates that Biel considered herself a minister or presented herself as one to the community. She described
herself as a teacher and claimed no benefits available
only to ministers.
Only with respect to the fourth consideration in
Hosanna-Tabor do Biel and Perich have anything in
common: they both taught religion in the classroom.
Biel taught lessons on the Catholic faith four days a
week. She also incorporated religious themes and symbols into her overall classroom environment and curriculum, as the school required. We do not, however,
read Hosanna-Tabor to indicate that the ministerial
exception applies based on this shared characteristic
alone. If it did, most of the analysis in Hosanna-Tabor
would be irrelevant dicta, given that Perich’s role in
teaching religion was only one of the four characteristics the Court relied upon in reaching the conclusion
that she fell within the ministerial exception.
And even Biel’s role in teaching religion was not
equivalent to Perich’s. In Hosanna-Tabor, the Supreme Court emphasized the importance of assessing
both the amount of time spent on religious functions
We do not suggest that Biel’s lack of a ministerial title is dispositive, nor do we “ma[ke] ordination status or formal title determinative of the exception’s applicability.” Hosanna-Tabor Evangelical Lutheran Church & Sch. v. E.E.O.C., 565 U.S. 171, 202
(2012) (Alito, J., concurring). But, like the Supreme Court in Hosanna-Tabor, we look to her title as shorthand for “the substance
reflected in that title.” Id. at 192.
3

13a
and “the nature of the religious functions performed.”
565 U.S. at 194 (emphasis added); see also id. at 204
(Alito, J., concurring) (“What matters is that [the individual] played an important role as an instrument of
her church’s religious message and as a leader of its
worship activities.”). Biel’s role in Catholic religious
education was limited to teaching religion from a book
required by the school and incorporating religious
themes into her other lessons. Whereas Perich orchestrated her students’ daily prayers, Biel’s students
themselves led the class in prayers. Biel gave students
the opportunity to lead the prayers and joined in, but
she did not teach, lead, or plan these devotions herself.
Similarly, while Perich crafted and led religious services for the school, Biel’s responsibilities at St.
James’s monthly Mass were only “to accompany her
students,” and “[t]o make sure the kids were quiet and
in their seats.” These tasks do not amount to the kind
of close guidance and involvement that Perich had in
her students’ spiritual lives.
B.
St. James argues that we should reach a contrary
conclusion in light of the Seventh Circuit’s recent decision in Grussgott v. Milwaukee Jewish Day School,
Inc., 882 F.3d 655 (7th Cir. 2018), which held that the
ministerial exception barred a Hebrew teacher’s employment discrimination suit against a Jewish primary school that fired her after she was diagnosed
with a brain tumor. Even assuming Grussgott was correctly decided, which we are not sure it was, the plaintiff in Grussgott more closely resembled Perich than
Biel does. Although the plaintiff in Grussgott lacked a
formal religious title, she had obtained a certification

14a
in a Jewish curricular program called Tal Am—a curriculum that involved integrating religious teachings
into Hebrew lessons, as the Seventh Circuit noted in
its analysis of the plaintiff’s job title. Id. at 659. The
plaintiff had also “tout[ed] significant religious teaching experience,” which “was a critical factor in the
school hiring her.” Id. at 659. She also prayed and performed rituals with her students. Id. at 660. For the
reasons discussed above, Biel’s role was less ministerial than that of the plaintiff in Grussgott.
The other post-Hosanna-Tabor cases on which St.
James relies are likewise not analogous to this one. All
of the plaintiffs in those cases had responsibilities that
involved pronounced religious leadership and guidance.4 In contrast, although Biel taught religion, the
other considerations that guided the reasoning in Hosanna-Tabor and its progeny are not present here. Biel
did not have ministerial training or titles. And she neither presented herself as nor was presented by St.
See, e.g., Fratello v. Archdiocese of New York, 863 F.3d 190, 20508 (2d Cir. 2017) (principal who oversaw daily prayers, supervised planning for Masses, delivered religious speeches, and was
required to obtain catechist certification and demonstrate “proficiency” in religious areas); Conlon v. InterVarsity Christian Fellowship, 777 F.3d 829, 835-36 (6th Cir. 2015) (certified “spiritual
director” for an organization with the mission to evangelize students on college campuses whose duties included assisting others
in finding “intimacy with God and growth in Christ-like character”); Cannata v. Catholic Diocese of Austin, 700 F.3d 169, 177-78
(5th Cir. 2012) (Church music director who independently selected music for Mass, trained cantors, and was “a lay liturgical
minister actively participating in the sacrament”); Temple Emanuel of Newton v. Mass. Comm’n Against Discrimination, 975
N.E.2d 433, 443-44 (Mass. 2012) (plaintiff who taught only religious subjects at a synagogue’s religious school that convened
only after the regular school day and on Sundays and did not provide any instruction in non-religious subjects).
4

15a
James as a minister. At most, only one of the four Hosanna-Tabor considerations weighs in St. James’s favor. No federal court of appeals has applied the ministerial exception in a case that bears so little resemblance to Hosanna-Tabor. See, e.g., Grussgott, 882
F.3d at 661 (applying exception where “two of the four
Hosanna-Tabor factors are present”); Conlon, 777 F.3d
at 835 (same). We decline St. James’s invitation to be
the first.
C.
A contrary rule, under which any school employee
who teaches religion would fall within the ministerial
exception, would not be faithful to Hosanna-Tabor or
its underlying constitutional and policy considerations. Such a rule would render most of the analysis in
Hosanna-Tabor irrelevant. It would base the exception
on a single aspect of the employee’s role rather than
on a holistic examination of her training, duties, title,
and the extent to which she is tasked with transmitting religious ideas.
Such a rule is also not needed to advance the Religion Clauses’ purpose of leaving religious groups free
to “put their faith in the hands of their ministers.” Hosanna-Tabor, 565 U.S. at 188. As the Supreme Court
recounted in Hosanna-Tabor, the historical episodes
that motivated the adoption of the Religion Clauses included struggles over whether the choice of parish
ministers would be made by local vestries or instead
by the British monarch, the Bishop of London, or colonial governors. Id. at 183. The Court likewise cited
First Amendment architect James Madison’s opinion
that the President ought to have no role in the appointment of the Catholic Church’s leadership in the territory of the Louisiana Purchase. Id. at 184. Although

16a
the Supreme Court held that “the ministerial exception is not limited to the head of a religious congregation,” id. at 190, the focus on heads of congregations
and other high-level religious leaders in the historical
backdrop to the First Amendment supports the notion
that, to comport with the Founders’ intent, the exception need not extend to every employee whose job has
a religious component.5
The First Amendment “insulates a religious organization’s ‘selection of those who will personify its beliefs.’” Puri, 844 F.3d at 1159 (quoting Hosanna-Tabor,
565 U.S. at 188). But it does not provide carte blanche
to disregard antidiscrimination laws when it comes to
other employees who do not serve a leadership role in
the faith. We cannot read Hosanna-Tabor to exempt
from federal employment law all those who intermingle religious and secular duties but who do not “preach
Indeed, Congress has specified that nothing in the ADA or Title
VII prohibits a religious organization from favoring members of
a particular religion in its hiring decisions. See 42 U.S.C.
§ 12113(d)(1) (stating that the ADA “shall not prohibit a religious
[organization] from giving preference in employment to individuals of a particular religion to perform work connected with the
carrying on . . . of its activities.”); 42 U.S.C. § 2000e-1(a) (stating
that Title VII “shall not apply to . . . a religious [organization]
with respect to the employment of individuals of a particular religion to perform work connected with the carrying on . . . of its
activities.”). But Congress did not exempt religious organizations
from the ADA’s or Title VII’s prohibitions on discriminating on
the basis of disability, race, color, sex, or national origin. That
choice, coupled with the presumption of constitutionality enjoyed
by congressional legislation, makes us especially hesitant to invalidate unnecessarily vast swaths of federal law as applied to
many employees of religious organizations. See United States v.
Watson, 423 U.S. 411, 416 (1976) (recognizing that a “strong presumption of constitutionality [is] due to an Act of Congress” (quoting United States v. Di Re, 332 U.S. 581, 585 (1948)).
5

17a
[their employers’] beliefs, teach their faith, . . . carry
out their mission . . . [and] guide [their religious organization] on its way.” 565 U.S. at 196.
IV.
For the foregoing reasons, we REVERSE the district court’s grant of summary judgment to St. James
and REMAND.6
_________________________________________________
FISHER, Circuit Judge, dissenting:
This appeal concerns whether Kristen Biel, a fifth
grade teacher at a Roman Catholic elementary school,
was a “minister” for the purposes of the ministerial exception. Contrary to the majority, I conclude that Biel
was a minister. As a result, I would affirm the District
Court’s decision that Biel is barred from bringing an
action against St. James under the Americans with
Disabilities Act.

On remand, St. James may of course argue that it did not violate
the ADA because its stated pedagogical and classroom management concerns—not Biel’s medical condition—were the basis for
its decision not to renew Biel’s contract. See Snead v. Metro. Prop.
& Cas. Ins. Co., 237 F.3d 1080, 1093 (9th Cir. 2001) (explaining
that a nondiscriminatory and non-pretextual reason for termination is a defense to an ADA claim). Contrary to the dissent’s implication, had St. James asserted a religious justification for terminating Biel, our holding would neither have commanded nor
permitted the district court to assess the religious validity of that
explanation, but rather only whether the proffered justification
was the actual motivation for termination, or whether not wanting to accommodate Biel’s disability was the motivation.
6

18a
I
During Biel’s one year of service as a full-time fifth
grade teacher at St. James, her duties included teaching religion as well as secular subjects. She taught 30minute religion classes four days a week. In her religion class, she used the curriculum from Coming to
God’s Life, a Catholic textbook chosen by the school
principal, Sister Mary Margaret. Using that curriculum, Biel taught and tested the students in her religion class about the Catholic sacraments, the lives of
Catholic Saints, Catholic prayers, Catholic social
teaching, Gospel stories, and church holidays. In her
secular classes, she was expected to incorporate Catholic teachings. She attended, as required by the school,
a one day conference at the Los Angeles Religious Education Congress that covered methods of incorporating God into lessons.
To get a complete picture of Biel’s role at St. James,
we look at various documents concerning her employment, including her employment contract, performance review, and the faculty handbook.1 Biel signed
an employment contract with St. James which indicated that her title was “Grade 5 Teacher.” By signing
the contract, Biel indicated that she understood that
St. James’s mission was “to develop and promote a
The faculty handbook is specifically referenced in Biel’s employment contract: “You shall be familiar with, and comply with the
School’s personnel policies and procedures . . . including policies
in the faculty handbook.” The handbook provides insight into St.
James’s expectations for faculty at the school. Like Biel’s performance review, the handbook is a reflection of the role St. James
intended Biel to fill. Regardless of whether it imposed contractual
obligations on Biel, it is helpful to our determination of whether
the relationship between Biel and St. James was that of a minister and church or merely an employee-employer relationship.
1

19a
Catholic School Faith Community within the philosophy of Catholic education as implemented at [St.
James], and the doctrines, laws, and norms of the
Catholic Church.” The contract also imposed several
requirements on Biel, mandating that she:
•

perform “[a]ll duties and responsibilities . . .
within [St. James’s] overriding commitment
[to developing the faith community],”

•

“model, teach, and promote behavior in conformity to the teaching of the Roman Catholic Church,”

•

and “participate in School activities including School liturgical activities, as requested.”

Sister Mary Margaret conducted an observational
review of Biel’s teaching performance during her first
semester as the fifth grade teacher. Her review included a section evaluating “Catholic Identity Factors”
in which she noted that there was “visible evidence of
signs, sacramental [sic], traditions of the Roman Catholic Church in the classroom,” and that the “[c]urriculum include[d] Catholic values infused through all
subject areas.”
In the Faculty/Staff Handbook, the school’s mission
statement was supplemented by nine “basic values”
guiding the school faculty, including:
•

Faith – “To personally demonstrate our belief in God . . . to actively take part in worship-centered school events”; and

•

Joy – “To delight in and enjoy our noble position as Catholic educators. . . .”

20a
The handbook also included the “Code of Ethics for
Professional Educators in Catholic Schools” which explained that “[e]ducation has always been one of the
most important missions of the Church. Its success depends upon the professional competence, quality, and
commitment of the teacher who chooses to teach in a
Catholic school.” This Code of Ethics detailed various
commitments that Catholic school teachers in the
Archdiocese of Los Angeles were expected to fulfill. It
explained that “Catholic school educators . . . are
called to: Promote the peace of Christ in the world,”
and to:
Seek and encourage persons who live a life consonant with gospel values and Catholic Church
teachings [and] pursue the apostolate of teaching through the following:
– modeling the faith life and witness to the
Faith Community on the parish, diocesan, national, and world levels;
– exemplifying the teachings of Jesus Christ by
dealing with children and adults in true love
and justice.
In a section titled “Statement of Principles,” the
handbook listed “religious development” as one of the
five goals of a St. James Catholic education. To achieve
this goal, “[the staff] guide the spiritual formation of
the student . . . and hope to help each child strengthen
his/her personal relationship with God.” The handbook further explained that staff implement that goal
by:
Teaching the Gospel message and Catholic doctrine in such a way as to make them relevant to
everyday life . . . Integrating Catholic thought

21a
and principles into secular subjects . . . Celebrating regularly scheduled Masses and seasonal prayer . . . Encouraging student participation in liturgical services . . . Providing opportunities for developing personal prayer and
shared prayer in the classroom.
In April of her year as the fifth grade teacher, Biel
was diagnosed with breast cancer. She informed Sister
Mary Margaret of the diagnosis and that she would
begin treatments in May. As described in the majority
opinion, Sister Mary Margaret informed Biel that St.
James would not renew her contract. Biel filed suit under the ADA, and St. James moved for summary judgment, relying on the ministerial exception. The District Court found the ministerial exception barred
Biel’s claims and granted the motion. Biel filed this
appeal.
II
The ministerial exception is an affirmative defense
that “precludes application” of employment discrimination laws, like the ADA, to “claims concerning the
employment relationship between a religious institution and its ministers.” Hosanna-Tabor Evangelical
Lutheran Church & Sch. v. E.E.O.C., 565 U.S. 171, 188
(2012). I agree with the majority, that the Supreme
Court’s holding and reasoning in Hosanna-Tabor
guides our analysis here.
The ministerial exception flows from the First
Amendment; “[t]he Establishment Clause prevents
the Government from appointing ministers, and the
Free Exercise Clause prevents it from interfering with
the freedom of religious groups to select their own.” Id.

22a
at 184. The exception bars discrimination claims because “the ministerial relationship lies so close to the
heart of the church that it would offend the Free Exercise Clause simply to require the church to articulate
a religious justification for its personnel decisions.”
Bollard v. Cal. Province of the Soc’y of Jesus, 196 F.3d
940, 946 (9th Cir. 1999); see also N.L.R.B. v. Catholic
Bishop of Chi., 440 U.S. 490, 502 (1979) (In discussing
jurisdiction over religious schools, the Court observed
“[i]t is not only the conclusions that may be reached by
the Board which may impinge on rights guaranteed by
the Religion Clauses, but also the very process of inquiry leading to findings and conclusions.”).
The purpose of the exception is to “ensure[] that the
authority to select and control who will minister to the
faithful—a matter ‘strictly ecclesiastical’—is the
church’s alone.” Hosanna-Tabor, 565 U.S. at 194-95
(citation omitted) (quoting Kedroff v. St. Nicholas Cathedral of Russian Orthodox Church in N. Am., 344
U.S. 94, 119 (1952)). Selection of such persons is a
“core matter of ecclesiastical self-governance with
which the state may not constitutionally interfere.”
Bollard, 196 F.3d at 946.2
The majority suggests that because the ADA and Title VII lack
a religious organization exemption, courts must take care not to
“invalidate unnecessarily vast swaths of federal law as applied to
many employees of religious organizations.” Maj. Op. at 15 n.5.
However, the ministerial exception is grounded in the First
Amendment and operates independently of any exception
granted by Congress. In Bollard, we held that “[d]espite the lack
of a statutory basis for the ministerial exception, and despite Congress’ apparent intent to apply Title VII to religious organizations
as to any other employer, courts have uniformly concluded that
the Free Exercise and Establishment Clauses . . . require a narrowing construction” to prevent “constitutionally impermissible
2

23a
The term “minister” is a term of art broader than
the word’s ordinary meaning. It “encompasses more
than a church’s ordained ministers.” Alcazar v. Corp.
of the Catholic Archbishop of Seattle, 627 F.3d 1288,
1291 (9th Cir. 2010). This is especially important because in our religiously diverse society, the ministerial
exception recognized in Hosanna-Tabor must transcend the Protestant Christian concept of “ministers” to
protect self-governance of all organizations of religious
purpose. Hosanna-Tabor, 565 U.S. at 198 (Alito, J.,
concurring).
In Hosanna-Tabor, the teacher was a minister
within the Protestant Christian framework, serving at
an Evangelical Lutheran church and school. Courts
must take care to apply the principles from HosannaTabor without discounting ministerial relationships in
contexts that do not bear the obvious linguistic markers that were available for the Court’s consideration in
Hosanna-Tabor. The ministerial exception “insulates
a religious organization’s ‘selection of those who will
personify its beliefs’” regardless of whether they bear
the standard markers of a minister. Puri v. Khalsa,
844 F.3d 1152, 1159 (9th Cir. 2017) (quoting HosannaTabor, 565 U.S. at 188). The totality of the circumstances approach serves that end, and “[a]s the Supreme Court has made clear, there is no ‘rigid formula
for deciding when an employee qualifies as a minister.’” Id. (quoting Hosanna-Tabor, 565 U.S. at 190).
To determine whether Biel is a minister for purposes of the exception, I proceed in three parts. First,
interference by the government.” 196 F.3d at 945. We must apply
the ministerial exception in this case “in order to reconcile the
statute with the Constitution” regardless of whether the ADA
contains an exception. Id. at 947.

24a
I will summarize and examine the Supreme Court’s
analysis of the exception in Hosanna-Tabor. Second, I
will consider how to weigh the four Hosanna-Tabor
factors in the context of this case. Finally, I consider
all of the circumstances of Biel’s employment and conclude that the ministerial exception applies.
A. Analytical framework provided by the Supreme Court in Hosanna-Tabor
In Hosanna-Tabor, the Supreme Court concluded
that a “called teacher” at a Lutheran elementary
school was a minister for the purposes of the ministerial exception. 565 U.S. at 190. The Court evaluated
“all the circumstances of her employment.” Id. Within
that totality of the circumstances approach, the Court
considered four factors: “[1] the formal title given [to
the teacher] by the Church,” which the majority describes as whether the employer held out the employee
as a minister, “[2] the substance reflected in that title,
[3] her own use of that title, and [4] the important religious functions she performed for the Church.” Id. at
192. These factors indicate the importance of fact-intensive analysis in the application of the ministerial
exception.
Justice Alito, joined by Justice Kagan, concurred to
clarify that the employee’s function, rather than his or
her title or ordination status, is the key. Hosanna-Tabor, 565 U.S. at 198 (Alito, J., concurring). He went on
to write that the exception “should apply to any ‘employee’ who . . . serves as a messenger or teacher of [the
organization’s] faith.” Id. at 199. He explained that
“[r]eligious autonomy means that religious authorities
must be free to determine who is qualified to serve in
positions of substantial religious importance,” which
includes “those who are entrusted with teaching and

25a
conveying the tenets of the faith to the next generation.” Id. at 200. Finally, Justice Alito described the
previous approach of the appellate courts, including
this Court, as a functional approach looking more at
the functions of individuals than at their titles, and
concluded that “[t]he Court’s opinion today should not
be read to upset this consensus.” Id. at 204.
Justice Thomas also concurred, explaining that, in
his view, courts applying the ministerial exception
must “defer to a religious organization’s good-faith understanding of who qualifies as its minister.” Id. at 196
(Thomas, J., concurring). Justice Thomas reasoned
that a “religious organization’s right to choose its ministers would be hollow. . . if secular courts could second-guess the organization’s sincere determination
that a given employee is a ‘minister.’” Id. at 197. This
approach, he maintained, best serves the goals of the
Free Exercise and Establishment Clauses because it
does not risk causing religious groups—especially
those outside of the mainstream—“to conform [their]
beliefs and practices regarding ‘ministers’ to the prevailing secular understanding” for fear of being denied
the exception. Id. (citing Corp. of Presiding Bishop of
Church of Jesus Christ of Latter-day Saints v. Amos,
483 U.S. 327, 336 (1987)).
Since the publication of Hosanna-Tabor, we and
other circuits have relied on a “totality-of-the-circumstances test.” Grussgott v. Milwaukee Jewish Day
Sch., Inc., 882 F.3d 655, 661 (7th Cir. 2018), cert. denied, ___ S. Ct. ___ (2018); see Puri, 844 F.3d at 1160
(holding that, on the pleadings, the exception did not
apply because of insufficient proof of religious duties,
lack of presentation of the individuals as religious

26a
leaders, and absence of religious substance in the positions); Conlon v. InterVarsity Christian Fellowship,
777 F.3d 829, 835 (6th Cir. 2015) (finding only two of
the four factors applicable, but still holding that the
“ministerial exception clearly applies”); Fratello v.
Archdiocese of New York, 863 F.3d 190, 204-05 (2d Cir.
2017) (“Hosanna-Tabor . . . neither limits the inquiry
to [the four factors it enumerates] nor requires their
application in every case.”). I will do the same here.
B. The Four Factors
i. Formal title
Biel argues that she is not a minister because nothing in her formal title, Grade 5 Teacher, reflects a ministerial role. “[A]n employee is more likely to be a minister if a religious organization holds the employee out
as a minister by bestowing a formal religious title.”
Puri, 844 F.3d at 1160. In Hosanna-Tabor, this factor
weighed in favor of applying the exception because the
school employed both “lay” and “called” teachers, and
the plaintiff was “called.” 565 U.S. at 177-78. “When
Hosanna-Tabor extended her a call, it issued her a ‘diploma of vocation’ according her the title ‘Minister of
Religion, Commissioned.’” Id. at 191. Here, Biel never
received any diploma or commissioning from the parish comparable to the teacher in Hosanna-Tabor. Her
title is apparently secular.
However, as the majority recognizes, a title is
merely an expression of how an employer holds its employee out to the community. Part of St. James’s expression of Biel’s role in the school is her designation
as a “Catholic school educator[]” in the school’s Code of
Ethics. The Code conveyed to the community that
Catholic school educators such as Biel would, among

27a
other things, “[p]romote the peace of Christ in the
world.” Biel’s title is presumably both “Catholic school
educator[]” and “Grade 5 Teacher,” the former contextualizing the latter. St. James thus holds Biel out as a
distinctively Catholic Grade 5 Teacher.
This first factor could therefore indicate that Biel
was a minister. In fact, some of the “called” language
that was important to determining that the teacher in
Hosanna-Tabor was a minister is also present in the
faculty handbook in this case. For instance, in the
Code of Ethics, under “Commitment to the Community,” the handbook reads “As Catholic school educators, we are called to . . . [p]romote the peace of Christ
in the world.” (emphasis added).
Although it seems strained to read Biel’s title as
“Grade 5 Teacher” without considering references in
the handbook to St. James’s teachers as “Catholic
school educators,” such a reading may be appropriate
at this stage in order to draw reasonable inferences in
Biel’s favor. Therefore, in the Hosanna-Tabor analysis, I consider Biel’s title to be secular. This factor
therefore weighs against recognizing her as a minister. However, her title is not dispositive. Id. at 193
(“[A] title, by itself, does not automatically ensure coverage.”); id. at 202 (Alito, J., concurring) (a ministerial
title is “neither necessary nor sufficient.”).
ii. Substance reflected in the title
In Hosanna-Tabor, this factor weighed in favor of
applying the exception. The called teacher’s title of
“commissioned minister” reflected “a significant degree of religious training,” including college-level theology, “followed by a formal process of commissioning.”

28a
Hosanna-Tabor, 565 U.S. at 191. In contrast, Biel received no religious commissioning and her formal education consisted of a university degree in liberal studies and a teaching certification. She was not required
to be endorsed by the parish or to go through extensive
training.
The majority focuses narrowly on educational and
practical training for the second factor in the Hosanna-Tabor analysis. However, I do not understand
this second factor to be limited to education and practical training. The substance reflected in a title is
broader than mere educational or practical prerequisites. See Grussgott, 882 F.3d at 659-660. Considering
other elements under the second factor facilitates the
ministerial exception’s application to different religions, including those that may not require formal
training for ministers. It also complements Justice
Thomas’s emphasis on the religious organization’s
own sincere determination of who ministers the faith.
Hosanna-Tabor, 565 U.S. at 196-97 (Thomas, J., concurring). If we expected all ministers to receive formal
religious education, we would improperly restrict the
exception.
Instead, I conclude that the substance underlying
Biel’s title at St. James consists of the school’s expectation, to which Biel specifically consented in her employment contract, that she propagate and manifest
the Catholic faith in all aspects of the role. Importantly, the substance of Biel’s title of Grade 5
Teacher encompassed the role of religion teacher.
The approach of analyzing the second factor as reflective of how the religious organization understood
an employee’s role is also consistent with at least two
of our sister Circuits’ interpretations. In Fratello, the

29a
Second Circuit ultimately concluded that a “lay principal” of a Catholic elementary school was a minister.
863 F.3d at 206, 210. In evaluating this title, the court
observed that though the principal was “not strictly required to meet any formal religious-education requirements, the substance reflected in that title as used by
the defendants and conveyed to the plaintiff entails
proficiency in religious leadership.” Id. at 208. Similarly, the Seventh Circuit in Grussgott held that the
second factor weighed in favor of applying the exception to a Hebrew language teacher at a Jewish school,
not only because of her religious training, but also because “the substance of [the teacher’s] title as conveyed to her and as perceived by others entails the
teaching of the Jewish religion to students.” 882 F.3d
at 659-60.
The majority distinguishes Grussgott based on the
teacher’s Tal Am certification, but in Grussgott, the
Seventh Circuit specifically noted that there was nothing in the record indicating what the Tal Am certification entailed beyond completion of seminars. Id. at
659. Though the Seventh Circuit found that the
teacher’s Tal Am certification was not material to its
analysis, the court nevertheless held that the teacher’s
curriculum and experience teaching religion “support[ed] the application of the ministerial exception”
at the second factor. Id. at 660. Contrary to the majority’s conclusion, this case is not distinguishable from
Grussgott based on a certification that may or may not
have indicated any significant degree of education or
training. The Seventh Circuit’s consideration of curriculum and teaching experience under the second Hosanna-Tabor factor supports the conclusion that this
factor encompasses more than just training.

30a
Even more explicitly than in Grussgott, the substance of Biel’s title as the Grade 5 Teacher encompasses her responsibility for all facets of her pupils’ education, which unquestionably includes religion class
and imparting the substantive teachings of the Catholic faith. In addition to her role as the religion
teacher, Biel agreed in her contract that she “understood that the mission of the School [was] to develop
and promote a Catholic School Faith Community
within the philosophy of Catholic education as implemented at the School, and the doctrines, laws and
norms of the Catholic Church.” The faculty handbook
extensively prescribes how the faculty should model
the Catholic faith and promote religious development.
Additionally, Biel was required to attend a Catholic
education conference, which focused on incorporating
religion into lesson plans. Finally, her contract was approved by both St. James’s principal, Sister Mary Margaret, and the pastor of the parish, and it clarified that
her role as a fifth grade teacher included teaching religion, specifically the Catholic faith. Because all of
these expectations were included in Biel’s role and in
the title given to her by St. James, I conclude that her
title reflected significant religious substance. This factor therefore weighs in favor of applying the exception.
iii. Biel’s own use of the title
“[A]n employee who holds herself out as a religious
leader is more likely to be considered a minister.” Puri,
844 F.3d at 1160. In Hosanna-Tabor, the teacher “held
herself out as a minister of the Church” in several
ways, including “accepting the formal call to religious
service,” “claim[ing] a special housing allowance on
her taxes” available only to ministers, and indicating,

31a
post-termination, “that she regarded herself as a minister at Hosanna-Tabor.” 565 U.S. at 191-92. Here, although Biel taught her students the tenets of the Catholic faith, she did not present herself to the public as a
minister. See Conlon, 777 F.3d at 835 (concluding that
this factor was not present when the employee did not
have a “public role of interacting with the community
as an ambassador of the faith”). This factor therefore
weighs against concluding that Biel was a minister.
iv. Important religious functions performed
In Puri, this Court emphasized that employees who
have “a role in conveying the Church’s message and
carrying out its mission” are likely ministers “even if
[they] devote[] only a small portion of the workday to
strictly religious duties.” Puri, 844 F.3d at 1160 (internal citation and alterations omitted). In Hosanna-Tabor, the teacher was responsible for “‘leading others
toward Christian maturity’ and ‘teaching faithfully
the Word of God, the Sacred Scriptures, in its truth
and purity and as set forth in all the symbolical books
of the Evangelical Lutheran Church.’” 565 U.S. at 192
(alterations omitted) (quoting the record). The Hosanna-Tabor teacher taught religion four days a week,
led her students in prayer three times a day, took students to school-wide chapel services once a week, and
led that chapel service approximately twice a year. Id.
Based on those duties, the Supreme Court concluded
that “[a]s a source of religious instruction, [the
teacher] performed an important role in transmitting
the Lutheran faith to the next generation.” Id. The
Court indicated that it would be error to give too much
weight to secular duties performed in addition to reli-

32a
gious ones or to the fact that “others not formally recognized as ministers . . . perform the same functions.”
Id. at 193.
Biel’s duties as the fifth grade teacher and religion
teacher are strikingly similar to those in Hosanna-Tabor. She taught religion class four times a week based
on the catechetical textbook Coming to God’s Life. In
that class, she was responsible for instructing her students on various areas of Catholic teachings, including
Catholic sacraments, Catholic Saints, Catholic social
teaching, and Catholic doctrine related to the Eucharist and the season of Lent. She prayed Catholic prayers with her students twice each day and attended
monthly school mass with her class.3 Additionally,
she, like all teachers at St. James, was evaluated on
incorporating “signs, sacramental [sic], [and] traditions of the Roman Catholic Church in the Classroom”
and “infus[ing] [Catholic values] through all subject
areas.” “As a source of religious instruction, [she] performed an important role in transmitting the [Catholic] faith to the next generation.” Id. at 192. For these
reasons, this factor weighs heavily in favor of considering Biel to be a minister. Biel was “expected to
The majority interprets Biel’s testimony to be that she joined
her students in prayer, but did not lead the fifth graders in
prayer. However, the record indicates that Biel’s prayer leaders
led the class in prayer: “I had prayer leaders. The prayers that
were said in the classroom were said mostly by the students. We
had prayer leaders.” The faculty handbook set the expectation
that Biel would “[p]rovid[e] opportunities for developing personal
prayer and shared prayer in the classroom.” Under “Daily
Prayer” in the “Staff Guidelines and Responsibilities” section of
the faculty handbook, there is a school-wide policy of beginning
and ending the day with prayer. To accept Biel’s testimony that
she merely joined the fifth graders in their prayers minimizes significant portions of the record.
3

33a
model, teach, and promote behavior in conformity to
the teaching of the Roman Catholic Church” according
to her employment contract, and was subject to termination if she failed to meet that expectation.
This analysis comports with the approach of the
Seventh Circuit which held that a Hebrew language
teacher “performed ‘important religious functions’ for
the school” when she “taught her students about Jewish holidays, prayer, and the weekly Torah readings . . . [and] practiced the religion alongside her students by praying with them and performing certain
rituals.” Grussgott, 882 F.3d at 660 (quoting HosannaTabor, 565 U.S. at 192). The duties of the teacher in
Grussgott are found in Biel’s case as well. My conclusion on this factor is also consistent with the Sixth Circuit’s approach in Conlon, which ruled that job duties
such as “assist[ing] others to cultivate ‘intimacy with
God and growth in Christ-like character through personal and corporate spiritual disciplines’” constituted
important religious functions. 777 F.3d at 835.
It is clear that Biel’s job duties “reflected a role in
conveying the Church’s message and carrying out its
mission.” Hosanna-Tabor, 565 U.S. at 192. However,
Biel argues that whatever her duties were, she executed them in a decidedly secular manner. She claims
that her religious instruction was straight out of a
textbook—just like with secular classes—and that her
only job at mass was “to make sure the kids were quiet
and in their seats.” Appellant’s Br. at 47. Her claim
that she executed her duties in a secular manner directly conflicts with her contractual agreement to “integrate Catholic thought” into subjects, “celebrate regularly scheduled Masses . . . with students,” and “encourage student participation in liturgical services.” In

34a
fact, under “Staff Guidelines and Responsibilities” in
the handbook, teachers are specifically expected to do
more than merely keep their elementary students
quiet during mass—they are expected to prepare their
students for mass: “Teachers prepare their students to
be active participants at Mass, with particular emphasis on Mass responses.” Biel indicated that her students participated in mass by presenting the gifts, i.e.,
the Eucharist. Biel’s students were trained to present
the gifts, and Biel was available to review the practice
with them if necessary. Biel’s role at mass was also to
personally demonstrate her faith through active participation in “worship-centered school events.” Biel’s
role as an “exemplar[] of practicing” Catholics would
not make her a minister if that were her only religious
function. See E.E.O.C. v. Miss. College, 626 F.2d 477,
485 (5th Cir. 1980). But because the determination of
who is a minister is a totality of the circumstances test,
I consider “all the circumstances of her employment”
in the assessment of her role. Hosanna-Tabor, 565
U.S. at 190.
Biel’s argument that she performed her duties in a
secular manner invites the very analysis the ministerial exception demands we avoid. The courts may not
evaluate the relative importance of a ministerial duty
to a religion’s overall mission or belief system. The
very duties that Biel attempts to trivialize, e.g. teaching Church doctrine and requiring participation and
attentiveness during mass, could easily be considered
essential to the faith and its conveyance to the next
generation, and she very well could have been terminated for failures in this area.
Consideration of her claims in federal court would
require the evaluation of “the importance and priority

35a
of the religious doctrine in question, with a civil factfinder sitting in ultimate judgment of what the accused church really believes, and how important that
belief is to the church’s overall mission.” Hosanna-Tabor, 565 U.S. at 206 (Alito, J., concurring). We must
avoid entangling the courts in this sort of analysis. In
Alcazar, this Court cited a Seventh Circuit case that
discussed the kind of government interference in religious affairs that the ministerial exception is designed
to avoid. 627 F.3d at 1292 (citing Tomic v. Catholic Diocese of Peoria, 442 F.3d 1036, 1040 (7th Cir. 2006),
abrogated by Hosanna-Tabor, 565 U.S. 171)). The
Tomic court explained that if a suit were allowed to go
forward between a minister and a church, the church
would defend its adverse employment decision with a
religious reason. The employee would argue that the
religious reason was a farce, and the real reason was
one prohibited by statute. In response the church
would provide evidence of the religious reason, which
the employee would dispute. The court would then
have to “resolve a theological dispute” in the course of
its adjudication of the claim. Tomic, 442 F.3d at 1040
(citing DeMarco v. Holy Cross High Sch., 4 F.3d 166,
171 (2d Cir. 1993)). The Religion Clauses do not permit
such entanglement in the affairs of religious organizations.
The Seventh Circuit rejected a similar argument in
Grussgott when the Hebrew teacher attempted to portray her role as teaching from a “culturally” Jewish
perspective rather than a religious perspective. For example, the teacher attempted to distinguish between
“leading prayer, as opposed to ‘teaching’ and ‘practicing’ prayer with her students.” 882 F.3d at 660. Her
argument did not prevail because a teacher’s “opinion

36a
does not dictate what activities the school may genuinely consider to be religious.” Id. Similarly here, how
Biel subjectively approached her duties is not relevant, let alone determinative.
C. Consideration of all the circumstances
Because the Supreme Court refused “to adopt a
rigid formula,” this Court should not treat the four Hosanna-Tabor factors as a strict test. Hosanna-Tabor,
565 U.S. at 190. Instead, the Court should take a step
back and consider whether “all the circumstances of
[Biel’s] employment” require that her claims be barred
by the ministerial exception. Id.
In reconciling the four factors with the totality of
the circumstances approach, the Seventh Circuit reasoned that where two factors weighed in favor of the
exception and two weighed against, “it would be overly
formalistic” to simply “call [the] case a draw.”
Grussgott, 882 F.3d at 661.4 I agree. See also Conlon,
777 F.3d at 835 (applying ministerial exception when
two factors were present); Cannata v. Catholic Diocese
of Austin, 700 F.3d 169, 177 (5th Cir. 2012) (“Application of the exception . . . does not depend on a finding
that [the employee] satisfies” the four factors.). The
Seventh Circuit in Grussgott ultimately applied the
ministerial exception because “[t]he school intended
[the teacher] to take on a religious role, and in fact her
job entailed many functions that simply would not be
part of a secular teacher’s job.” 882 F.3d at 661. The
court held that “it [was] fair to say that, under the totality of the circumstances in this particular case, the
The Seventh Circuit described the Hebrew teacher’s title and
whether she held herself out as a minister as “formalistic factors . . . greatly outweighed by [her] duties and functions.”
4

37a
importance of [the teacher’s] role as a ‘teacher of faith’
to the next generation outweighed other considerations.” Id. (alteration omitted) (quoting Hosanna-Tabor, 565 U.S. at 199 (Alito, J., concurring)). So too here.
In considering the complete picture of Biel’s employment, I am struck by the importance of her stewardship of the Catholic faith to the children in her
class. Biel’s Grade 5 Teacher title may not have explicitly announced her role in ministry, but the substance
reflected in her title demonstrates that she was a
Catholic school educator with a distinctly religious
purpose. The religious purpose of Catholic school educators is not new to the federal courts. The Supreme
Court has long “recognized the critical and unique role
of the teacher in fulfilling the mission of a church-operated school.” Catholic Bishop, 440 U.S. at 501 (discussing Lemon v. Kurtzman, 403 U.S. 602, 617 (1971)).
Biel expressly acknowledged this purpose in her contract, and committed herself to performing all “duties
and responsibilities . . . within [the] overriding commitment” of St. James to “develop and promote a Catholic School Faith Community within the philosophy of
Catholic education.” Biel acknowledged that her continued employment was dependent upon her demonstrated ability to do so. Drawing all inferences in Biel’s
favor, it is still impossible to ignore that her position
at St. James was pervaded by religious purpose.
Looking at each of the Hosanna-Tabor factors, and
considering the evidence in its totality without adherence to a formulaic calculation, it appears that Biel
was a minister, though perhaps not as obviously as the
teacher in Hosanna-Tabor. However, the teacher in
Hosanna-Tabor was within the Protestant Christian

38a
framework, and therefore the terminology of her employment very neatly fit within the ministerial exception. We must not make the mistake of tethering the
exception too close to the Protestant Christian concept
of ministers. See Hosanna-Tabor, 565 U.S. at 198
(Alito, J., concurring).
The ministerial exception protects the relationship
between a church and its ministers. It does not require
a church to assert a religious reason for an employment decision. I fear that the majority’s opinion will
undermine this protection. The majority holds that
“had St. James asserted a religious justification for
terminating Biel, our holding would neither have commanded nor permitted the district court to assess the
religious validity of that explanation, but rather only
whether the proffered justification was the actual motivation for termination.” Maj. Op. at 2 n.6. But the
majority misses the point of the ministerial exception,
which is to shield the relationship between a church
and its ministers from the eyes of the court without
requiring the church to provide a religious justification
for an adverse employment decision. Hosanna-Tabor,
565 U.S. at 194-95 (“The purpose of the exception is
not to safeguard a church’s decision to fire a minister
only when it is made for a religious reason. The exception instead ensures that the authority to select and
control who will minister to the faithful . . . is the
church’s alone.”).
*

*

*

This case demonstrates that the First Amendment’s guarantees are not without cost. The ADA protects some of the most vulnerable people in our society
from discrimination. It is an incredibly important statutory protection. But “[t]he First Amendment, of

39a
course, is a limitation on the power of Congress,” and
any exercise of statutory rights under the ADA requires the courts “to decide whether that [is] constitutionally permissible under the Religion Clauses of the
First Amendment.” Catholic Bishop, 440 U.S. at 499.
We are necessarily bound by the Supreme Court’s
adoption of the ministerial exception, and its guarantee of noninterference in religious self-governance. If
the exception is to provide sufficient protection for religious freedom, courts must give the exception a broad
application. Puri, 844 F.3d at 1159.
In light of these considerations, Hosanna-Tabor,
and all the circumstances of this case, I would conclude that the ministerial exception does apply to Biel
in her capacity as the fifth grade teacher at St. James
because of the substance reflected in her title and the
important religious functions she performed. These
factors outweigh her formal title and whether she held
herself out as a minister. Ultimately, Biel was “entrusted with teaching and conveying the tenets of the
faith to the next generation.” Hosanna-Tabor, 565
U.S. at 200 (Alito, J., concurring). Those responsibilities render her the “type of employee that a church
must be free to appoint or dismiss in order to exercise
the religious liberty that the First Amendment guarantees.” Id. at 206.
III
For the above reasons, I respectfully dissent. I
would affirm the ruling of the District Court.

40a
FOR PUBLICATION
UNITED STATES COURT OF APPEALS FOR
THE NINTH CIRCUIT
KRISTEN BIEL,
Plaintiff-Appellant,
v.
ST. JAMES SCHOOL, A CORP.,
a California non-profit corporation; DOES, 2-50, inclusive; ST. JAMES CATHOLIC
SCHOOL, a California nonprofit corporation; DOE 1,

No. 17-55180
D.C. No.
2:15-cv-04248TJH-AS

Defendants-Appellees.

ORDER

Filed June 25, 2019
Before: D. Michael Fisher, Paul J. Watford, and
Michelle T. Friedland, Circuit Judges.
Order;
Dissent by Judge R. Nelson



The Honorable D. Michael Fisher, United States Circuit Judge
for the U.S. Court of Appeals for the Third Circuit, sitting by
designation.

41a
SUMMARY
Employment Discrimination
The panel denied a petition for panel rehearing
and, on behalf of the court, a petition for rehearing en
banc following the panel’s opinion reversing the district court’s summary judgment in an employment
discrimination action under the Americans with Disabilities Act.
In its opinion, the panel held that the First
Amendment’s ministerial exception to generally applicable employment laws did not bar a teacher’s
claim against the Catholic elementary school that
terminated her employment.
Dissenting from the denial of rehearing en banc,
Judge R. Nelson, joined by Judges Bybee, Callahan,
Bea, M. Smith, Ikuta, Bennett, Bade, and Collins,
wrote that the panel’s opinion embraced the narrowest construction of the ministerial exception, split
from the consensus of other circuits that the employee’s ministerial function should be the key focus, and
conflicted with the Supreme Court’s decision in Hosanna-Tabor Evangelical Lutheran Church & Sch. v.
E.E.O.C., 565 U.S. 171 (2012).
ORDER
The panel has voted unanimously to deny the petition for panel rehearing. Judge Fisher recommends
granting the petition for rehearing en banc.



This summary constitutes no part of the opinion of the court.
It has been prepared by court staff for the convenience of the
reader.

42a
The full court has been advised of the petition for
rehearing en banc. A judge of the court requested a
vote on en banc rehearing. The matter failed to receive a majority of votes of non-recused active judges
in favor of en banc consideration. Fed. R. App.
P. 35(f).
The petition for rehearing and the petition for rehearing en banc are DENIED.
_________________________________________________
R. NELSON, Circuit Judge, with whom BYBEE,
CALLAHAN, BEA, M. SMITH, IKUTA, BENNETT,
BADE, and COLLINS, Circuit Judges, join, dissenting
from the denial of rehearing en banc:
By declining to rehear this case en banc, our court
embraces the narrowest construction of the First
Amendment’s “ministerial exception” and splits from
the consensus of our sister circuits that the employee’s ministerial function should be the key focus. The
panel majority held that Kristen Biel, a fifth-grade
teacher who taught religion and other classes at a
Catholic school, was not a “minister” because the circumstances of her employment were not a carbon
copy of the plaintiff’s circumstances in HosannaTabor Evangelical Lutheran Church & School v.
E.E.O.C., 565 U.S. 171, 196 (2012). See Biel v. St.
James Sch., 911 F.3d 603 (9th Cir. 2018). The panel
majority’s approach conflicts with Hosanna-Tabor,
decisions from our court and sister courts, decisions
from state supreme courts, and First Amendment
principles. And it poses grave consequences for religious minorities (collectively, a substantial plurality
of religious adherents in this circuit) whose practices

43a
don’t perfectly resemble the Lutheran tradition at issue in Hosanna-Tabor.
This is precisely the case warranting en banc review. We adopted the ministerial exception en banc
prior to Hosanna-Tabor. See Alcazar v. Corp. of the
Catholic Archbishop of Seattle, 627 F.3d 1288 (9th
Cir. 2010) (en banc). The ministerial exception “is
undeniably an issue of exceptional importance” because its denial “portends serious consequences for
one of the bedrock principles of our country’s formation—religious freedom.” Bollard v. Cal. Province
of the Soc’y of Jesus, 211 F.3d 1331, 1333 (9th Cir.
2000) (Wardlaw, J., joined by Kozinski, O’Scannlain,
and Kleinfeld, JJ., dissenting from denial of rehearing en banc).
Since then, the Supreme Court unanimously upheld the ministerial exception in Hosanna-Tabor,
suggesting its application in a case like this. Three
Justices—Thomas, Alito, and Kagan—filed or joined
two separate concurrences specifically proposing legal
tests under which the ministerial exception plainly
applies here (and no Justice has proposed a test undermining its application here). And virtually all our
sister courts—and state supreme courts—adopted the
ministerial exception in similar cases.
In this case, five different amici—coalitions of religiously diverse organizations and law professors—
urge this court to correct its legal error. As amici explain, the panel majority’s approach trivializes the
significant religious function performed by Catholic
school teachers. This court’s narrow construction of
the exception threatens the autonomy of minority religious groups, like amici, “for whom religious education is a critical means of propagating the faith, in-

44a
structing the rising generation, and instilling a
sense of religious identity.” Brief of Gen. Conference
of Seventh-Day Adventists, Int’l Soc. for Krishna
Consciousness, Inc., Jewish Coalition for Religious
Liberty, and Shaykh Hamza Yusuf as Amici Curiae
in Support of Rehearing and Rehearing En Banc at 2.
In light of all this, where does our court now stand
on the ministerial exception? Despite a unanimous
Supreme Court opinion upholding the exception, we
are weaker, not stronger, in applying it. Not once, not
twice, but three times now in the last two years, we
have departed from the plain direction of the Supreme Court and reversed our district courts’ faithful
application of Supreme Court precedent. See also Puri
v. Khalsa, 844 F.3d 1152 (9th Cir. 2017); MorrisseyBerru v. Our Lady of Guadalupe Sch., No. 17-56624,
2019 WL 1952853 (9th Cir. Apr. 30, 2019) (unpublished). And in each successive case, we have excised the ministerial exception, slicing through constitutional muscle and now cutting deep into core
constitutional bone.
In turning a blind eye to St. James’s religious liberties protected by both Religion Clauses, we exhibit
the very hostility toward religion our Founders prohibited and the Supreme Court has repeatedly instructed us to avoid. Accordingly, I dissent.
I
The ministerial exception is well-entrenched in
our constitutional framework. “The Supreme Court
has long recognized religious organizations’ broad
right to control the selection of their own religious
leaders.” Puri, 844 F.3d at 1157. In 2012, a unanimous Supreme Court formally recognized a “ministe-

45a
rial exception” “grounded in the First Amendment[]
that
precludes
application
of
[employmentdiscrimination] legislation to claims concerning the
employment relationship between a religious institution and its ministers.” Hosanna-Tabor, 565 U.S. at
188. In doing so, the Court reaffirmed “that it is impermissible for the government to contradict a
church’s determination of who can act as its ministers.” Id. at 185.
A
I begin with the text. “Congress shall make no law
respecting an establishment of religion, or prohibiting the free exercise thereof . . . .” U.S. Const. amend.
I. The Establishment Clause and Free Exercise
Clause have been said to “often exert conflicting
pressures,” Cutter v. Wilkinson, 544 U.S. 709, 719
(2005), but they speak in harmony to ensure dual
protections for religious freedom.
A troubled history of religious persecution led a
young United States to break from the familiarities of
living under the established Church of England. See
Hosanna-Tabor, 565 U.S. at 182-83 (“Seeking to escape the control of the national church, the Puritans
fled to New England, where they hoped to elect their
own ministers and establish their own modes of worship.” (citations omitted)). Creating a Federal Government with powers “few and defined,” see The Federalist No. 45 (James Madison), the Founders confirmed that the new government, unlike the English
Crown, would have no role in filling ecclesiastical offices. See Hosanna-Tabor, 565 U.S. at 184.
To avoid entangling government and religion, our
government is prohibited from deciding matters in-

46a
herently ecclesiastical. See Watson v. Jones, 80 U.S.
(13 Wall.) 679, 730-31 (1872). While the Establishment Clause expressly limits the government’s power, the Free Exercise Clause also affirmatively protects religious institutions, which are “independen[t]
from secular control or manipulation,” as they have
the “power to decide for themselves, free from state
interference, matters of church government as well
as those of faith and doctrine.” Kedroff v. Saint Nicholas Cathedral of Russian Orthodox Church in N.
Am., 344 U.S. 94, 116 (1952). This includes the
“[f]reedom to select the clergy.” Id. By interfering
with a religious institution’s freedom to select those
church personnel who promote its faith and mission,
the government exceeds its delegated authority and
infringes on that institution’s right to free exercise of
religion.
The Founders understood these First Amendment
protections were so fundamental that enshrining
them in the Constitution outweighed the ancillary
costs. These costs, in some cases, are not insignificant. They include exemptions for religious organizations from some laws protecting society’s most vulnerable from employment discrimination. See Title
VII of the Civil Rights Act of 1964, 42 U.S.C. § 2000e
et seq. For example, after the Salvation Army terminated one of its ministers, the employee sued, alleging a violation of Title VII. See McClure v. Salvation
Army, 460 F.2d 553 (5th Cir. 1972). The Fifth Circuit
held the First Amendment barred the Title VII claim,
reasoning that “[m]atters touching” “[t]he relationship between an organized church and its ministers . . . must necessarily be recognized as of prime
ecclesiastical concern” because a church’s “minister is
the chief instrument by which [it] seeks to fulfill its

47a
purpose.” Id. at 558-59. In the decades since, every
Circuit to address the issue, including this one,1
unanimously recognized this “ministerial exception.”
B
In Hosanna-Tabor, the Supreme Court followed
the uniform approach of the Courts of Appeals and
held the ministerial exception bars employment discrimination suits by the group’s ministers. 565 U.S. at
190. The case involved an employment discrimination
claim brought by Cheryl Perich, a former elementary
teacher, against her employer, Hosanna-Tabor Evangelical Lutheran Church and School. Id. at 177-79.
Perich was first employed as a “lay teacher” and later
became a “called teacher.” Id. at 178. She taught kindergarten for four years and fourth grade for one
year, which involved teaching a variety of subjects,
including religion. Id. Specifically, Perich “taught a
religion class four days a week, led the students in
prayer and devotional exercises each day, and attended a weekly school-wide chapel service. [She] led
the chapel service herself about twice a year.” Id. After Perich was diagnosed with narcolepsy and terminated, the EEOC sued the school, and Perich intervened, alleging violations of the Americans with Disabilities Act (“ADA”), 104 Stat. 327, 42 U.S.C.
§ 12101 et seq. (1990). Id. at 180.
The Court held the ministerial exception “ensures
that the authority to select and control who will minister to the faithful—a matter ‘strictly ecclesiastical’—is the church’s alone.” Id. at 194-95 (internal

See Werft v. Desert Sw. Annual Conference, 377 F.3d 1099,
1101–04 (9th Cir. 2004).
1

48a
citation omitted) (quoting Kedroff, 344 U.S. at 119).
The Court explained:
Requiring a church to accept or retain an unwanted minister, or punishing a church for
failing to do so, intrudes upon more than a
mere employment decision. Such action interferes with the internal governance of the
church, depriving the church of control over the
selection of those who will personify its beliefs.
By imposing an unwanted minister, the state
infringes the Free Exercise Clause, which protects a religious group’s right to shape its own
faith and mission through its appointments.
According the state the power to determine
which individuals will minister to the faithful
also violates the Establishment Clause, which
prohibits government involvement in such ecclesiastical decisions.
Id. at 188-89.
The Court unanimously held the ministerial exception barred Perich’s suit. Although Perich was an
elementary school teacher, the Court agreed with every Court of Appeals to have considered the question
that the “exception is not limited to the head of a religious congregation.” Id. at 190. However, the Court
was “reluctant . . . to adopt a rigid formula for deciding when an employee qualifies as a minister.” Id. Instead, it found that “all the circumstances of
[Perich’s] employment,” supported “that the exception covers Perich.” Id.
The Court discussed four “considerations” which
supported its conclusion that Perich fell within the
exception’s scope: “the formal title given Perich by

49a
the Church, the substance reflected in that title, her
own use of that title, and the important religious
functions she performed for the Church.” Id. at 192.
Each of these separate considerations evidenced
Perich’s ministerial role, including that her “job duties reflected a role in conveying the Church’s message and carrying out its mission.” Id. at 192. Thus,
“the interest of religious groups in choosing who will
preach their beliefs, teach their faith, and carry out
their mission” warranted application of the exception
to Perich. Id. at 196.
While each of the four considerations confirmed
Perich was a minister, the Court’s discussion of them
did not create a test for courts to use to decide whether an employee was a “minister” under the exception.
The Court specifically reserved the ministerial exception’s legal floor: “We express no view on whether
someone with Perich’s duties would be covered by the
ministerial exception in the absence of the other considerations we have discussed.” Id. at 193 (emphasis
added).
Justice Alito, joined by Justice Kagan, however,
did express a view on this issue: “[C]ourts should focus on the function performed by persons who work
for religious bodies.” Id. at 198 (Alito, J., concurring)
(emphasis added).2 This “functional consensus” was
widespread before Hosanna-Tabor and has remained
dominant afterward.3 As such, nothing in the opinion
Justice Thomas went further, noting the Religion Clauses require courts “to defer to a religious organization’s good-faith understanding of who qualifies as its minister.” Id. at 196 (Thomas, J., concurring).
2

See Hollins v. Methodist Healthcare, Inc., 474 F.3d 223, 226
(6th Cir. 2007) (referring to function as the “general rule”), ab3

50a
“should . . . be read to upset [the] consensus” among
Courts of Appeals (including our own4) that took this
“functional approach.” Id. at 204. The concurrence
also cautioned it would be a mistake, given the country’s religious diversity, “if the term ‘minister’ or
the concept of ordination were viewed as central to
the important issue of religious autonomy that is presented in cases like this one.” Id. at 198.
II
The panel majority mistakes Hosanna-Tabor to
create a resemblance-to-Perich test using the “four
considerations” which the Supreme Court found evidenced Perich’s ministerial role. Because Biel’s circumstances resembled Perich’s in only one of the four
areas, the panel majority held erroneously that the
exception did not apply.
Biel taught fifth grade at St. James Catholic
School in Torrance. Biel, 911 F.3d at 605. She was
responsible for teaching her students all academic
subjects and religion, to which she was required to
dedicate a minimum of 200 minutes each week. Biel
v. St. James Sch., No. 15-04248, 2017 WL 5973293,
at *1 (C.D. Cal. Jan. 24, 2017). She taught religion at
least four days per week, using a curriculum and
textbook grounded in the Catholic Faith and in accordance with the Church’s teaching. Biel, 911 F.3d
at 605. Biel also supervised and joined her students
rogated in part by Hosanna-Tabor, 565 U.S. at 195 n.4; infra
Section IV.A.
“The Ninth Circuit too has taken a functional approach, just
recently reaffirming that ‘the ministerial exception encompasses
more than a church’s ordained ministers.’” Hosanna-Tabor, 565
U.S. at 204 (Alito, J., concurring) (quoting Alcazar, 627 F.3d at
1291).
4

51a
during twice-daily prayer led by students and escorted them to a school-wide monthly mass. Id.
Biel’s signed employment contract required her to
work toward St. James’s “overriding commitment” to
the “doctrines, laws, and norms” of the Catholic
Church, and to “model, teach, and promote behavior
in conformity to the teaching of the Roman Catholic
Church.” Id. It also stated the school’s mission: “to
develop and promote a Catholic School Faith Community within the philosophy of Catholic education
as implemented at [St. James], and the doctrines,
laws, and norms of the Catholic Church.” Id. at 612
(Fisher, J., dissenting). The school’s faculty handbook
further required that teachers “participate in the
Church’s mission” of providing “quality Catholic education to . . . students, educating them in academic
areas and in . . . Catholic faith and values.” Id. at
605-06 (majority op.).
At Biel’s only formal teaching evaluation, the
school’s principal, Sister Mary Margaret, measured
Biel’s performance in both secular and religious aspects. Id. at 606. The evaluation was positive, though
noting areas for improvement. Id. Less than six
months later, Biel learned she had breast cancer. Id.
She told the school she would miss work to undergo
surgery and chemotherapy. Id.
A few weeks later, Biel was informed her teaching
contract would not be renewed for the next academic
year. Id. Biel sued St. James, alleging her termination violated the ADA. The district court determined
the ministerial exception applied and granted summary judgment in favor of St. James. Biel, 2017 WL
5973293, at *3.

52a
Our court reversed in a 2-1 decision. Biel, 911
F.3d 603. The panel majority compared Biel’s circumstances with Perich’s under each of the four “considerations,” but concluded the only similarity between
Biel and Perich was that “they both taught religion in
the classroom.” Id. at 609. Contrasting Biel and
Perich, the majority determined Biel had “none of
Perich’s credentials, training, or ministerial background,” St. James did not “hold Biel out as a minister by suggesting to its community that she has special expertise in Church doctrine, values, or pedagogy
beyond that of any practicing Catholic,” id. at 608,
and “nothing in the record indicates that Biel considered herself a minister or presented herself as one to
the community,” id. at 609.
Because, “[a]t most, only one of the four HosannaTabor considerations weigh[ed] in St. James’s favor,”
the panel majority held the ministerial exception did
not apply. Id. at 610. The majority refused “to exempt
from federal employment law all those who intermingle religious and secular duties but who do not
‘preach [their employers’] beliefs, teach their
faith, . . . carry out their mission . . . [and] guide [their
religious organization] on its way.’” Id. at 611 (quoting Hosanna-Tabor, 565 U.S. at 196). The panel majority “decline[d] St. James’s invitation to be the first”
federal court of appeals to apply “the ministerial exception in a case that bears so little resemblance to
Hosanna-Tabor.” Id. at 610.
III
When considering the “totality of the circumstances,” the panel majority converted the four considerations discussed by the Supreme Court into a comparative test: “Only after describing all of these aspects

53a
of Perich’s position did the Supreme Court hold . . .
that Perich was a minister covered by the ministerial
exception.” Id. at 608 (emphasis added) (internal quotation marks omitted). Under the panel majority’s
test, a religious organization must show that its employee served a significant religious function and the
presence of at least one additional “consideration” to
receive protection under the ministerial exception.
But Hosanna-Tabor mandates no such requirement. It did not establish a test or set any legal floor
that must be met for the exception to apply. It held
only that the exception exists, applies to ADA claims,
and covered Perich. Hosanna-Tabor, 565 U.S. at 190.
The panel majority embraced the narrowest reading
of the ministerial exception and diverged from the
function-focused approach taken by our court previously, our sister courts, and numerous state supreme
courts.
As our court recently observed, “The Supreme
Court has provided some guidance on the circumstances that might qualify an employee as a minister
within the meaning of the ministerial exception.” Puri, 844 F.3d at 1160 (emphasis added). Other circuits
agree. See Grussgott v. Milwaukee Jewish Day Sch.,
Inc., 882 F.3d 655, 658 (7th Cir. 2018), cert. denied,
139 S. Ct. 456 (2018) (“Consequently, Grussgott’s argument focuses on differentiating herself from the
teacher in that case, and she is correct that her role
is distinct from the called teacher’s in Hosanna-Tabor.
But the Supreme Court expressly declined to delineate a ‘rigid formula’ for deciding when an employee is
a minister.” (citing Hosanna-Tabor, 565 U.S. at 190));
Fratello v. Archdiocese of N.Y., 863 F.3d 190, 204-05
(2d Cir. 2017) (“Hosanna-Tabor instructs only as to

54a
what we might take into account as relevant, including the four considerations on which it relied; it neither limits the inquiry to those considerations nor requires their application in every case.”); Cannata v.
Catholic Diocese of Austin, 700 F.3d 169, 176-77 (5th
Cir. 2012) (“Any attempt to calcify the particular considerations that motivated the Court in HosannaTabor into a ‘rigid formula’ would not be appropriate . . . . Application of the exception . . . does not depend on a finding that [the employee] satisfies the
same considerations that motivated the Court to find
that Perich was a minister within the meaning of the
exception.”).
Ignoring the warnings of Justices Alito and Kagan
(and Justice Thomas), the panel majority found that
because three of the considerations—all of which relate to Biel’s title—were not present, the exception
did not apply. See Biel, 911 F.3d at 607-09. The only
area in which it did find Biel and Perich similar was
in the religious function each performed. Yet this
similarity is particularly significant to religious
groups whose beliefs and practices may render the
other three considerations less relevant, or not relevant at all. Such is the case here.
Comparing Biel’s title to Perich’s, the panel majority reasoned, “it cannot be said that [Biel’s title of]
Grade 5 Teacher ‘conveys a religious—as opposed to
secular— meaning.’” Biel, 911 F.3d at 608-09 (quoting Conlon v. InterVarsity Christian Fellowship, 777
F.3d 829, 834-35 (6th Cir. 2015)). Unlike in Biel,
Perich’s title in Hosanna-Tabor was particularly relevant because, as the Court noted, the Sixth Circuit
“failed to see any relevance in the fact that Perich
was a commissioned minister.” Hosanna-Tabor, 565

55a
U.S. at 192-93. Clarifying that her title “by itself,
does not automatically ensure coverage,” the Court
explained that “the fact that an employee has been
ordained or commissioned as a minister is surely relevant.” Id. at 193. In this discussion, the Court did
not suggest that the lack of a title with religious significance suggests that an employee does not hold a
ministerial role. See Fratello, 863 F.3d at 207 (“Nor
would plainly secular titles (by themselves) prevent
application of the ministerial exception. We think the
substance of the employees’ responsibilities in their
positions is far more important.”). Indeed, requiring a
religious group to adopt a formal title or hold out its
ministers in a specific way is the very encroachment
into religious autonomy the Free Exercise Clause
prohibits, precisely because such a demand for ecclesiastical titles inherently violates the Establishment
Clause.
Requiring religious titles is particularly problematic when religious organizations do not bestow such
titles on some (or any) of their ministers yet clearly
understand the employee’s role to carry religious significance. This is why “a recognized religious mission
[which] underlie[s] the description of the employee’s
position” is also “surely relevant,” just as an employee’s title or ordination may be. Hosanna-Tabor, 565
U.S. at 193. Title may cut one way because “an employee is more likely to be a minister if a religious organization holds the employee out as a minister by
bestowing a formal religious title.” Puri, 844 F.3d at
1160 (emphasis added). Lack of a religious title does
not suggest the opposite.
It’s not surprising that Biel’s title, as a Catholic
school teacher, differed from Perich’s title, as a Lu-

56a
theran school teacher. “Minister,” although commonly used in Protestant denominations, is “rarely if ever
used in this way by Catholics, Jews, Muslims, Hindus, or Buddhists.” Hosanna-Tabor, 565 U.S. at 198
(Alito, J., concurring) (emphasis added). Indeed, focus
on Biel’s title “trivialized how the distinct Catholic
mission of integral formation permeated everything
Ms. Biel did as a teacher” and “downplays Ms. Biel’s
function as a Catholic teacher.” Brief for Nat’l Catholic Educ. Ass’n as Amicus Curiae in Support of Rehearing and Rehearing En Banc at 4.
Catholicism contains a rich history replete with evidence that its teachers play an essential role in its religious mission, yet it doesn’t always embrace a formal
title for such teachers as Hosanna-Tabor did with
Perich. See generally id. at 5-9. Because of this, St.
James thoroughly explained in its Motion for Summary Judgment why the role of the teacher comes
with “duties and responsibilities” to be “performed
within the School’s overriding commitment to developing its faith” by incorporating “Catholic values and
traditions throughout all subject areas, not just during the Religion course.” St. James’s Mot. For Summ.
J. at 3-4, Biel v. St. James Sch., No. 15-04248, ECF
No. 65. Biel, as a teacher, played an “instrumental
role in furthering and promoting the Catholic faith as
part of her daily job duties.” Id. at 13.
Nor is it surprising that a Catholic school’s practices regarding ordination differ. As with title, religious training may be relevant, as it was in the Lutheran context. But other religious groups don’t always require similar formal training yet clearly bestow ministerial roles. The concept of ordination—
although recognized by some, and by some only as to

57a
certain offices—“has no clear counterpart” in others.5
Hosanna-Tabor, 565 U.S. at 198 (Alito, J., concurring). The “Catholic Church has repeatedly emphasized that the growth of lay Catholic teachers—those
who are succeeding roles previously held by religious
orders, sisters, brothers, and clergy—does not change
a Catholic teacher’s responsibilities.” Brief of Nat’l
Catholic Educ. Ass’n as Amicus Curiae in Support of
Rehearing and Rehearing En Banc at 14; see also id.
at 8-9 & n.2 (“only 2.8% of Catholic full-time professional staff are either members of the clergy or religious orders”). These diverse religious practices are
why Justices Alito and Kagan cautioned against emphasis on title.
Additionally, courts are ill-equipped to gauge the
religious significance of titles or the sufficiency of
training. Biel’s title may appear to carry little or no
religious significance to a court unfamiliar with the
customs of Catholic education, but Biel’s employment
at St. James had significant religious substance. See
Biel, 911 F.3d at 612-13, 616-18 (Fisher, J., dissenting) (documents, “including her employment contract,
a performance review, and the faculty handbook,” all
supported applying the exception). Thus, when noting that Biel’s title of “teacher” cannot be said to
convey a religious meaning, the panel majority, just
like the now-reversed Sixth Circuit in HosannaTabor, overlooks the “recognized religious mission”

For example, Jehovah’s Witnesses “consider all” adherents to
be “ministers,” while in Islam, “every Muslim can perform the
religious rites, so there is no class or profession of ordained clergy.” Hosanna-Tabor, 565 U.S. at 202 nn.3–4 (Alito, J., concurring) (citations omitted).
5

58a
which “underlie[s] the description of the employee’s
position.” Hosanna-Tabor, 565 U.S. at 193.
Furthermore, ignoring this history and these
practices risks the very Establishment Clause violation the ministerial exception was intended to prevent. As Justice Thomas explains:
Our country’s religious landscape includes organizations with different leadership structures and doctrines that influence their conceptions of ministerial status. The question
whether an employee is a minister is itself religious in nature, and the answer will vary widely. Judicial attempts to fashion a civil definition of “minister” through a bright-line test or
multi-factor analysis risk disadvantaging those
religious groups whose beliefs, practices, and
membership are outside of the “mainstream” or
unpalatable to some.
Id. at 197 (Thomas, J., concurring).
Other courts have rightly considered these differences. For example, the Massachusetts Supreme Judicial Court applied the ministerial exception to a
teacher at a Jewish school, although “she was not a
rabbi, was not called a rabbi, and did not hold herself
out as a rabbi” on a record “silent as to the extent of
her religious training.” Temple Emanuel of Newton v.
Mass. Comm’n Against Discrim., 975 N.E.2d 433, 443
(Mass. 2012).
Finally, the panel majority also contrasted how
Perich held herself out as a minister, noting “nothing
in the record indicates that Biel considered herself a
minister or presented herself as one to the community.” Biel, 911 F.3d at 609. That Perich held herself out

59a
as a minister merely evidenced her ministerial role; it
did not institute a requirement that others must hold
themselves out as ministers to qualify for the exception. That is one way in which an employee is “more
likely to be considered a minister.” Puri, 844 F.3d at
1160.
Biel’s religious duties are far more relevant than
whether she personally felt she was a minister. See
Grussgott, 882 F.3d at 660 (“Grussgott’s opinion does
not dictate what activities the school may genuinely
consider to be religious.”). Presumably, any plaintiff
who wishes to avoid the application of the exception
will emphasize why she did not consider herself a
minister.
In sum, as title, training, and how an employee
holds herself out differ widely depending on tradition,
courts have rightly focused on the fourth consideration—function.
IV
The panel majority rejected a function-focused approach embraced by all other circuits, including our
own, before and after Hosanna-Tabor, in favor of its
resemblance test. Despite Biel’s religious function,
the panel majority refused to apply the exception because it determined the other considerations were not
present.6 Biel’s significant religious function, as a
Catholic school teacher who teaches religion, demonstrates why the exception applies.
However, Judge Fisher in dissent persuasively found two of
the “considerations” weighed in favor of the exception. See Biel,
911 F.3d at 616–20, 622 (concluding the ministerial exception
applied because of substance reflected in her title and important
religious functions she performs).
6

60a
A
The panel majority mistakes Hosanna-Tabor to
hold that the ministerial exception cannot apply
based on important religious functions alone, despite
the Court’s express reservation of the question. See
Biel, 911 F.3d at 609 (rejecting that the exception applies based on function and “[i]f it did, most of the
analysis . . . would be irrelevant dicta”); id. at 610
(“the other considerations that guided the reasoning
in Hosanna-Tabor and its progeny are not present
here”).
Our court should have adhered to circuit precedent and followed the lead of our sister circuits by focusing on “the function performed by persons who
work for religious bodies.” Hosanna-Tabor, 565 U.S.
at 198 (Alito, J., concurring). The majority’s departure from the functional approach is even more surprising because the court has previously placed more
emphasis on function post-Hosanna-Tabor.
[A]n employee whose “job duties reflect a role
in conveying the Church’s message and carrying out its mission” is likely to be covered by
the exception, even if the employee devotes only a small portion of the workday to strictly religious duties and spends the balance of her
time performing secular functions.
Puri, 844 F.3d at 1160 (internal brackets omitted)
(quoting Hosanna-Tabor, 565 U.S. at 192). Teachers,
like Biel, at mission-driven schools, like St. James,
convey the Church’s message and carry out its mission. In this court, this renders the employee “likely
to be covered by the exception.” Id. By allowing the
panel majority’s decision to stand, we have allowed a

61a
panel to contradict our precedent in a way that strips
the exception of its core constitutional purpose.
After Hosanna-Tabor, other circuits have placed
greater emphasis on an employee’s function. See Lee
v. Sixth Mount Zion Baptist Church of Pittsburgh, 903
F.3d 113, 122 n.7 (3d Cir. 2018) (“[T]he ministerial
exception applies to any claim, the resolution of
which would limit a religious institution’s right to
choose who will perform particular spiritual functions.”) (internal quotation marks omitted);
Grussgott, 882 F.3d at 661 (finding teacher fell within
exception, noting school intended plaintiff to take on
a religious role including functions not part of a
teacher’s job at a secular school); Fratello, 863 F.3d at
205 (“Where, as here, the four considerations are relevant in a particular case, ‘courts should focus’ primarily ‘on the function[s] performed by persons who
work for religious bodies.’” (quoting Hosanna-Tabor,
565 U.S. at 198 (Alito, J., concurring))); Cannata, 700
F.3d at 177 (applying the exception because plaintiff
performed important “function” that “furthered the
mission of the church and helped convey its message”).
Similarly, state supreme courts have emphasized
the importance of function. See Temple Emanuel of
Newton, 975 N.E.2d at 443 (holding function alone
sufficed to apply the exception); Kirby v. Lexington
Theological Seminary, 426 S.W.3d 597, 613 (Ky.
2014) (courts should focus on the “actual acts or functions conducted by the employee”).
B
The ministerial exception protects the “interest of
religious groups in choosing who will preach their be-

62a
liefs, teach their faith, and carry out their mission.”
Hosanna-Tabor, 565 U.S. at 196. It “insulates a religious organization’s ‘selection of those who will personify its beliefs.’” Puri, 844 F.3d at 1159 (quoting
Hosanna-Tabor, 565 U.S. at 188). Justices Alito and
Kagan found the ministerial exception “should apply
to any ‘employee’ who leads a religious organization,
conducts worship services or important religious ceremonies or rituals, or serves as a messenger or teacher
of its faith.” Hosanna-Tabor, 565 U.S. at 199 (Alito,
J., concurring) (emphasis added). On many occasions,
the Court has recognized the “critical and unique role
of the teacher in fulfilling the mission of a churchoperated school.” NLRB v. Catholic Bishop of Chi., 440
U.S. 490, 501 (1979); see also Lemon v. Kurtzman, 403
U.S. 602, 617 (1971) (“Religious authority necessarily
pervades [the Catholic] school system.”).
Catholic school teachers certainly hold this special
role. See Brief of Nat’l Catholic Educ. Ass’n as Amicus
Curiae in Support of Rehearing and Rehearing En
Banc at 5-9 (schools and teachers lay at the core of
the church’s ministry). According to the Vatican, the
Catholic Church founded schools “because she considers them as a privileged means of promoting the formation of the whole man, since the school is a centre
in which a specific concept of the world, of man, and
of history is developed and conveyed.” Id. at 5 (quoting The Sacred Congregation for Catholic Education,
The Catholic School #8(5) (1977)). Teachers of religion at religious schools, regardless of title, training,
or official ordination, effectuate this purpose and car-

63a
ry out the Church’s mission by ministering to students.7
At St. James, teachers “preach” and “teach” the
school’s Catholic beliefs and faith. By instructing new
generations, teachers carry out the school’s mission,
precisely what a unanimous Supreme Court found
relevant. Hosanna-Tabor, 565 U.S. at 192. Teachers
personify the beliefs of the school and serve a crucial
role in providing a holistic education to students.
Biel’s religious duties and function as a teacher at St.
James show she was “entrusted with teaching and
conveying the tenets of the [Catholic] faith to the
next generation” and played a “substantial role in
conveying the Church’s message and carrying out its
mission.” Id. at 200, 204 (Alito, J., concurring) (internal quotation marks omitted). Employment decisions
relating to those who serve this function is precisely
what the ministerial exception is supposed to protect.

The religious nature of teachers is not unique to Catholicism.
See Brief for Church of God in Christ, Inc. and Union of Orthodox Jewish Congregations of Am. as Amicus Curiae in Support
of Rehearing and Rehearing En Banc at 1, 14 (parochial K–12
schools teach “religious and secular studies in a holistic environment”; a central Jewish prayer repeats the Biblical directive
to “[t]ake to heart these instructions with which [God] charges
you this day” and to “[i]mpress them upon your children” (quoting Worship Services: V’ahavta (Read), ReformJudaism.org,
https://tinyurl.com/yddle9l6)); Brief for Gen. Conference of Seventh-day Adventists, Int’l Soc’y for Krishna Consciousness, Inc.,
Jewish Coal. for Religious Liberty, and Shaykh Hamza Yusuf as
Amicus Curiae in Support of Rehearing and Rehearing En Banc
at 2 (“[R]eligious education is a critical means of propagating
the faith, instructing the rising generation, and instilling a
sense of religious identity” for minority religious groups like
amici.).
7

64a
Our sister circuits pay closer attention to function,
particularly in religious educational settings like the
one here. See, e.g., Grussgott, 882 F.3d at 657 (Jewish
Day School teacher’s role fell within “ministerial exception as a matter of law,” given “[h]er integral role
in teaching her students about Judaism and the
school’s motivation in hiring her, in particular,
demonstrate that her role furthered the school’s religious mission”); Fratello, 863 F.3d at 208-09 (former
principal at Catholic school was a minister, emphasizing “function” was “the most important consideration”); Conlon, 777 F.3d at 837 (finding spiritual director at Christian college educational group a minister).
Indeed, religious groups will have differing “views
on exactly what qualifies as an important religious
position, but it is nonetheless possible to identify a
general category of ‘employees’ whose functions are
essential to the independence of practically all religious groups.” Hosanna-Tabor, 565 U.S. at 200 (Alito,
J., concurring). Among such groups are “those who
are entrusted with teaching and conveying the tenets
of the faith to the next generation.” Id. Biel was certainly entrusted with this duty.
The panel majority’s minimized view of the religious significance of Biel’s role as a teacher stands in
stark contrast to this court’s view of the role of teachers in secular contexts. This court recently expounded
on the instrumental role of a high school football
coach—a role “akin to being a teacher”—as his “multi-faceted” job “entailed both teaching and serving as
a role model and moral exemplar,” because of which
he had a “duty to use his words and expressions to
‘instill[ ] values.’” Kennedy v. Bremerton Sch. Dist.,

65a
869 F.3d 813, 825-27 (9th Cir. 2017), cert. denied, 139
S. Ct. 634 (2019) (citations omitted). If true at a secular public school, how much more significant the role
of an elementary school teacher at a Catholic school
who teaches religion on a daily basis?
Religion teaches morals and instills values, and
“[t]he various characteristics of the [parochial]
schools make them a powerful vehicle for transmitting the Catholic faith to the next generation.” Lemon, 403 U.S. at 616 (internal quotation marks omitted).8 Teachers effectuate this purpose, and “[w]hen it
comes to the expression and inculcation of religious
doctrine, there can be no doubt that the messenger
matters.” Hosanna-Tabor, 565 U.S. at 201 (Alito, J.,
concurring). This court’s high view of the important
role of teachers as role models for morality in a secular public school does not square with its view that
teachers of religion at a religious school carry little
religious significance.
Whatever the continuing value of the legal test in Lemon, the
Supreme Court’s recognition of the religious mission of parochial schools remains unchallenged. See Am. Legion v. Am. Humanist Ass’n, No.17-1717, slip op. at 12–16 (U.S. June 20, 2019)
(plurality op. of Alito, J., joined by Roberts, C.J., Breyer, & Kavanaugh, JJ.) (“In many cases, this Court has either expressly
declined to apply the test or has simply ignored it.”); id., slip op.
at 1–4 (Kavanaugh, J., concurring) (“[T]he Lemon test is not
good law and does not apply to Establishment Clause cases . . .”); id., slip op. at 6–7 (Thomas, J., concurring in the judgment) (“I would . . . overrule the Lemon test in all contexts.”);
id., slip op. at 6–9 (Gorsuch, J., concurring in the judgment)
(“Lemon was a misadventure.”); see also Freedom From Religion
Found., Inc. v. Chino Valley Unified Sch. Dist. Bd. of Educ., 910
F.3d 1297, 1305–07 (9th Cir. 2018) (R. Nelson, J., joined by
Bybee, Callahan, Bea, & Ikuta, JJ., dissenting from denial of
rehearing en banc).
8

66a
C
Our court is now the first to issue an opinion narrowing the First Amendment’s ministerial exception
to apply only where an employee of a religious organization serves a significant religious function and either bestows upon an employee a religiously significant title (at least in a court’s view), or requires the
employee to have obtained religious training.
The harmful effects of this opinion have already
emerged. In Morrissey-Berru, another panel of this
court applied Biel’s rule to hold summarily in an unpublished opinion that a Catholic school teacher’s
“significant religious responsibilities” were insufficient. No. 17-56624, 2019 WL 1952853, at *1. Like
Biel, Morrissey-Berru reversed a district court judge’s
decision finding the exception applied. The panel
acknowledged that Morrissey-Berru
committed to incorporate Catholic values and
teachings into her curriculum, as evidenced by
several of the employment agreements she
signed, led her students in daily prayer, was in
charge of liturgy planning for a monthly Mass,
and directed and produced a performance by
her students during the School’s Easter celebration every year.
Id. But because Biel held that “an employee’s duties
alone are not dispositive under Hosanna-Tabor’s
framework,” the panel concluded the exception did not
bar Morrissey-Berru’s claim. Id. The case for the ministerial exception in Morrissey-Berru is even stronger
than in Biel given the Supreme Court’s directive in
Hosanna-Tabor. Absent further review of Biel, the
implications are stark: Catholic schools in this circuit

67a
now have less control over employing its elementary
school teachers of religion than in any other area of
the country. Given our court’s broad coverage, this is
not insignificant. Now thousands of Catholic schools
in the West have less religious freedom than their
Lutheran counterparts nationally. See Larson v.
Valente, 456 U.S. 228, 244 (1982) (“The clearest
command of the Establishment Clause is that one religious denomination cannot be officially preferred
over another.”).
V
In applying the ministerial exception, our court
should look to the function performed by employees of
religious bodies. Doing so would honor the foundational protections of the First Amendment and ensure all religious groups are afforded the same protection.

68a
UNITED STATES COURT OF APPEALS FOR
THE NINTH CIRCUIT
Notice of Docket Activity
The following transaction was entered on 07/03/2019
at 3:58:37 PM PDT and filed on 07/03/2019
Case Name:

Darryl Biel v. St. James School

Case Number: 17-55180
[ECF No.: 114]
Docket Text:
Appellant Kristen Biel in 17-55180 substituted by
Appellant Darryl Biel in 17-55180 [11354293] (OC)
*

*

*

69a
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
WESTERN DIVISION
KRISTEN BIEL,
Plaintiff,
v.
ST. JAMES SCHOOL,
Defendant.

CV 15-04248 TJH (ASx)
Amended
Order and Judgment

The Court has considered the St. James School’s
[“St. James”] motion for summary judgment, together
with the moving and opposing papers.
This motion concerns whether Plaintiff Kristen
Biel was a “minister” within the meaning of the
“ministerial exception” to Title VII of the Civil Rights
Act of 1964 , 42 U.S.C. § 2000e, et seq., [“Title VII”] and
is, therefore, barred from bringing the instant action
under the Americans with Disabilities Act, 42 U.S.C.
§ 12101, et seq [“ADA”].
St. James hired Biel in 2013 as a first grade
substitute teacher. In June, 2013, Sister Mary
Margaret, St. James’s principal, hired Biel as a fulltime fifth grade teacher — with the title of
“teacher” — for the 2013–14 school year. Upon
accepting the position, Biel signed an employment
contract stating that St. James’s mission is “to develop
and promote a Catholic school faith community within
the philosophy of Catholic education as implemented
at St. James, and the doctrines, laws, and norms of the
Catholic Church.” Further, Biel agreed to perform
“[a]ll duties and responsibilities . . . within St. James’s
overriding commitment to developing its faith.” Under
her employment contract, Biel was required to “model,

70a
teach, and promote behavior in conformity to the
teaching of the Roman Catholic Church.”
In addition to teaching secular subjects, Biel
taught a thirty-minute religion class to her students
four days per week, and was required to dedicate a
minimum of 200 minutes every week to the subject of
religion. The religion course was grounded upon the
norms and doctrines of the Catholic Faith, including
the sacraments of the Catholic Church, social
teachings according to the Catholic Church, and the
overall Catholic way of life. For instance, Biel taught
her students the significance of the Lent season, the
Last
Supper,
Easter,
the
Eucharist,
and
Reconciliation. As a teaching guide for the religion
course, Biel used a Catholic textbook, entitled
“Coming to God’s Life,” from which Biel gave her
students weekly tests. Further, Biel was required to
pray with her students, and did so twice a day. Biel,
also, incorporated the Catholic faith into the secular
curriculum she taught. During her tenure at St.
James, Biel attended a four-to five hour conference
regarding ways to better incorporate God into lessons
at the Los Angeles Religious Education Congress.
In April, 2014, Biel was diagnosed with cancer and
informed Sister Mary Margaret. In June, 2014, Sister
Mary Margaret informed Biel that St. James would
not be renewing her contract for the 2014-2015 school
year. In June, 2015, Biel filed this suit alleging six
claims under the ADA. St. James, now, moves for
summary judgment as to all six claims.
Discussion
In a motion for summary judgment, when the
moving party has the burden of proof at trial, as St.

71a
James has here on its affirmative defense, the moving
party has the initial burden of establishing a prima
facie case. See Celotex Corp. v. Catrett, 477 U.S. 317,
323 (1986). If St. James satisfies its burden, the
burden will shift to Biel to introduce evidence
sufficient to raise a triable issue. See Celotex Corp.,
477 U.S. at 323. Each fact relied upon in this Order is
undisputed.
St. James argued that Biel’s claims — all brought
under the ADA, and, consequently, Title VII — are
barred under the ministerial exception. The
ministerial exception bars Title VII claims where the
employer is a religious institution and the employee is
a “minister.” See Hosanna-Tabor Evangelical
Lutheran Church & Sch. v. E.E.O.C., 132 S. Ct. 694,
704 (2012) [“Hosanna-Tabor”]. The ministerial
exception is an exception to Title VII “grounded in the
First Amendment, that precludes application of such
legislation to claims concerning the employment
relationship between a religious institution and its
ministers.” Hosanna-Tabor, 132 S. Ct. at 705 (footnote
omitted). The ministerial exception “is intended to
protect the relationship between a religious
organization and its clergy from constitutionally
impermissible interference by the government.” Werft
v. Desert Sw. Annual Conference of United Methodist
Church, 377 F.3d 1099, 1101 (9th Cir. 2004) (footnote
and internal quotations omitted).
Here, there is no dispute that St. James, as a
Catholic school, is a religious institution. Accordingly,
the application of the ministerial exception turns on
whether Biel was a “minister.” See Hosanna-Tabor,
132 S. Ct. at 705.

72a
Whether Biel is a minister depends on all the
circumstances of Biel’s employment, including her
education before and during her tenure, her title, and
her job duties. See Hosanna-Tabor, 132 S. Ct. at 707.
“The paradigmatic application of the ministerial
exception is to the employment of an ordained
minister . . . [b]ut the ministerial exception
encompasses more than a church’s ordained
ministers.” Alcazar v. Corporation of the Catholic
Archbishop of Seattle, 627 F.3d 1288, 1291 (2010). The
ministerial exception may apply “notwithstanding the
assignment of some secular responsibilities.” Alcazar,
627 F.3d at 1293.
In Hosanna-Tabor, the teacher at a religious school
taught a forty-five minute religion class four days a
week in addition to teaching math, language arts,
social studies, science, gym, art, and music. HosannaTabor, 132 S. Ct. at 700, 709. The teacher, also, led the
students in prayer and devotional exercises each day,
and attended a weekly school-wide chapel service,
which she led about twice a year. Hosanna-Tabor, 132
S. Ct. at 700. Additionally, the teacher held the title of
“called teacher,” a reference to teachers at the school
who had satisfied certain academic and other
requirements, and were deemed by the school to have
“been called to their vocation by God through a
congregation.” Hosanna-Tabor, 132 S. Ct. at 700. After
taking disability leave, and subsequently losing her
position at the school, the teacher sued the school
under the ADA. Hosanna-Tabor, 132 S. Ct. at 700-01.
Upon appeal to the Supreme Court, the Court held
that the circumstances of the teacher’s job —
particularly the teacher’s title, the teacher’s efforts to
hold herself out as a minister, and the teacher’s job

73a
duties — established that the teacher was a “minister”
within the meaning of the ministerial exception.
Hosanna-Tabor, 132 S. Ct. at 707-10. In so holding,
the Court expressly rejected the notion that the
teacher was not a minister because “her religious
duties consumed only 45 minutes of each workday,
and that the rest of her day was devoted to teaching
secular subjects.” Hosanna-Tabor, 132 S. Ct. at 709.
Here, St. James has established a prima facie case
that Biel was a minister because her employment
contract and job duties demonstrate that her “job
duties reflected a role in conveying the Catholic
Church’s message and carrying out its mission.” See
Hosanna-Tabor, 132 S. Ct. at 708. Just as the plaintiff
in Hosanna-Tabor taught religion and prayed with her
students, Biel conveyed the Catholic Church’s
message by teaching religion to her students four
times each week for thirty minutes, by administering
and evaluating weekly tests from a Catholic textbook,
“Coming to God’s Life,” and by praying with the
students twice each day. See Hosanna-Tabor, 132 S.
Ct. at 700, 708. Further, Biel clearly sought to carry
out St. James’s Catholic mission by, for example,
including Catholic teachings into all of her lessons and
attending a conference to learn techniques for
incorporating religious teachings into her lessons.
Although this case does not contain all of the
hallmarks of ministry identified in Hosanna-Tabor, it
is clear that Hosanna-Tabor was not intended to
represent the outer limits of the ministerial exception.
See Hosanna-Tabor, 132 S. Ct. at 707. Instead, the
question is whether the claims at issue may interfere
with St. James’s ability to choose who will convey its
message. See Bollard v. California Province of the

74a
Soc'y of Jesus, 196 F.3d 940, 946 (9th Cir. 1999). For
the reasons discussed above, St. James has
established a prima facie case that Biel acted as a
messenger of St. James’ faith. See Hosanna-Tabor, 132
S. Ct. at 708. Therefore, St. James established a prima
facie case Biel was a minister within[ ] the meaning of
the ministerial exception.
Further, because all facts relied upon in this Order
are undisputed by the parties, Biel did not raise a
triable issue of fact that would bar the granting of
summary judgment. See Celotex Corp., 477 U.S. at
323.
Therefore,
It is Ordered that the motion for summary
judgment be, and hereby is, Granted.
It is Further Ordered, Adjudged, and Decreed that
judgment be, and hereby is, Entered in favor of
Defendant St. James School and against Plaintiff
Kristen Biel.
It is Further Ordered, Adjudged, and Decreed that
Plaintiff Kristen Biel shall take nothing and that all
parties shall bear their own costs.
Date: January 24, 2017
/s/ Terry J. Hatter, Jr.
Terry J. Hatter, Jr.
Senior United States District Judge

75a
42 U.S.C. § 12112 provides:
§ 12112. Discrimination
(a) General rule
No covered entity shall discriminate against a
qualified individual on the basis of disability in regard
to
job
application
procedures,
the
hiring,
advancement, or discharge of employees, employee
compensation, job training, and other terms,
conditions, and privileges of employment.
(b) Construction
As used in subsection (a), the term “discriminate
against a qualified individual on the basis of
disability” includes-*

*

*

(5)(A) not making reasonable accommodations to
the known physical or mental limitations of an
otherwise qualified individual with a disability
who is an applicant or employee, unless such
covered entity can demonstrate that the
accommodation would impose an undue hardship
on the operation of the business of such covered
entity; or
(B) denying employment opportunities to a job
applicant or employee who is an otherwise
qualified individual with a disability, if such denial
is based on the need of such covered entity to make
reasonable accommodation to the physical or
mental impairments of the employee or applicant;
*

*

*

76a
EXCERPTS FROM
DEFENDANT’S RESPONSE TO PLAINTIFF’S
SEPARATE STATEMENT OF
UNCONTROVERTED AND CONTROVERTED
FACTS AND CONCLUSIONS OF LAW IN
SUPPORT OF HER OPPOSITION TO
DEFENDANT’S MOTION FOR SUMMARY
JUDGMENT, OR IN THE ALTERNATIVE,
PARTIAL SUMMARY JUDGMENT
ECF No. 84-1
[ER 29]
DANIEL R. SULLIVAN (State Bar No. 96740)
drs@sullivanballog.com
BRIAN L. WILLIAMS (State Bar No. 227948)
blw@sullivanballog.com
MICHAEL S. VASIN (State Bar No. 227945)
msv@sullivanballog.com
VERONICA FERMIN (State Bar No. 271331)
nuf@sullivanballog.com
SULLIVAN, BALLOG & WILLIAMS, LLP
400 North Tustin Avenue, Suite 120
Santa Ana, California 92705
Telephone: (714) 541-2121
Facsimile: (714) 541-2120
Attorneys for Defendant ST. JAMES CATHOLIC
SCHOOL (erroneously sued herein as St. James
School, a corp.)
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
KRISTEN BIEL, an individual,
Plaintiff,

Case No. 2:15-cv-04248
TJH (ASx)

77a
vs.
ST. JAMES SCHOOL,
A CORP, a California
non-profit corporation;
and DOES 1-50, inclusive,

Assigned to: Hon. Terry
J. Hatter, Jr.
Magistrate Judge: Alka
Sagar

DEFENDANT’S RESPONSE TO PLAINDefendants. TIFF’S SEPARATE
STATEMENT OF UNCONTROVERTED
AND CONTROVERTED FACTS AND
CONCLUSIONS OF
LAW IN SUPPORT OF
HER OPPOSITION TO
DEFENDANT’S MOTION FOR SUMMARY
JUDGMENT, OR IN
THE ALTERNATIVE,
PARTIAL SUMMARY
JUDGMENT
[Filed and Served Concurrently with Defendant’s Reply Brief to
Plaintiff’s Opposition to
Motion for Summary
Judgment, or in the Alternative, Partial Summary Judgment; Declaration of Veronica Fermin; and Evidentiary
Objections]
Date: November 7,
2016

78a
Time: UNDER SUBMISSION
Complaint Filed:
06/05/2015
Trial Date: 01/10/2017
[ER 30]
TO ALL PARTIES AND THEIR ATTORNEYS OF
RECORD:
Defendant, ST. JAMES CATHOLIC SCHOOL
hereby submits its Response to Plaintiff’s Separate
Statement of Controverted and Uncontroverted Facts
and Conclusions of Law in Support of Her Opposition
to Defendant’s Motion for Summary Judgment, or in
the Alternative, Partial Summary Judgment against
Plaintiff, KRISTEN BIEL (hereinafter “Plaintiff”).
I. Statement of Controverted and Uncontroverted Facts and Supporting Evidence
Moving Party’s Statement of Uncontroverted
Facts (“DSUF”)
1. St. James Catholic School (“St. James” or the
“School”) is a private, Catholic elementary school in
Torrance, CA.
Kreuper Declaration (“decl.”) ¶ 3; Sister Mary Margaret Kreuper Deposition (“Kreuper depo.” 11:3-12;
Plaintiff depo., 24:7-8).
Plaintiff’s Response and Supporting Evidence
UNCONTROVERTED
_________________________________________________

79a
2. St. James School is the parish school for St. James
Catholic Church in Redondo Beach and, as such, is a
religious, non-profit organization.
(Kreuper depo., 11:10-14).
Plaintiff’s Response and Supporting Evidence
UNCONTROVERTED
_________________________________________________
3. St. James School operates as part of the overall ministry of St. James Catholic Church in Redondo Beach,
CA.
(Kreuper decl. ¶ 3)
Plaintiff’s Response and Supporting Evidence
UNCONTROVERTED
_________________________________________________
[ER 31]
4. In other words, the school is one of several ministries that comprises the St. James Catholic Church
parish.
(Kreuper decl. ¶ 3)
Plaintiff’s Response and Supporting Evidence
UNCONTROVERTED
_________________________________________________
5. The School offers kindergarten through eighth
grade with only one class per grade level.
(Kreuper depo., 20:7-12).
Plaintiff’s Response and Supporting Evidence
CONTROVERTED
St. James School has operated with two teachers at
one grade level.

80a
Deposition of Mary Kreuper 20:23-21:7; 26:21-27:16;
Deposition of Kristen Biel 14:22-15:25; 41:7-42:5
[DEFENDANT’S] RESPONSE: Objection: Mischaracterizes facts and evidence. This does not create a
genuine dispute as to any material fact because the
testimony Plaintiff presents does not controvert the
fact that the school offers kindergarten through eighth
grade with one class per grade level. Plaintiff’s evidence relates to two teachers having shared the first
grade which does not controvert the moving party’s
fact. Plaintiff attempts to create the appearance of a
controverted fact when there isn’t one here.
_________________________________________________
6. For the past 27 years, Sister Mary has been the
principal of the School. She is a vowed member of a
religious congregation of the Roman Catholic Church.
(Kreuper depo., 11:19-22, Kreuper decl., ¶ 1).
Plaintiff’s Response and Supporting Evidence
UNCONTROVERTED
_________________________________________________
7. The mission of St. James is to develop and promote
a Catholic school faith community within the philosophy of Catholic education [ ] as implemented at the
School, and the doctrines, laws, and norms of * * *
Plaintiff’s Response and Supporting Evidence
UNCONTROVERTED
_________________________________________________
*

*

*

[ER 35]
17. Every teacher at St. James was required to pray
with their students every day.

81a
(Kreuper decl. ¶ 9).
Plaintiff’s Response and Supporting Evidence
UNCONTROVERTED
_________________________________________________
18. Plaintiff is Catholic.
(Plaintiff depo., 24:9-10).
Plaintiff’s Response and Supporting Evidence
UNCONTROVERTED
_________________________________________________
19. As a Catholic, she prayed with her students every
day both in the morning and at the end of each day.
(Plaintiff depo., 25:5-10).
Plaintiff’s Response and Supporting Evidence
UNCONTROVERTED
_________________________________________________
20. Plaintiff prayed Catholic prayers with her students
including The Lord’s Prayer and the Hail Mary
Prayer.
(Plaintiff depo., 25:16-26:1).
Plaintiff’s Response and Supporting Evidence
CONTROVERTED to the extent that Biel had prayer
leaders in her class room that would teach and engage
the students in daily prayer.
Deposition of Kristen Biel 25:11-15, 25:22-23
[DEFENDANT’S] RESPONSE: Objection: Mischaracterizes facts and evidence. This does not create a
genuine dispute as to any material fact because the
evidence presented by Plaintiff does not controvert the
moving party’s fact that Plaintiff prayed Catholic
prayers with her students. Plaintiff testified that she

82a
prayed each of the prayers described above with her
students twice a day. Plaintiff attempts to create the
appearance of a controverted fact when there isn’t one
here. Evidence: Biel Depo., 25:4-25:1.
_________________________________________________
21. In addition, Plaintiff attended school Mass every
month with her students where she also prayed with
them and where they occasionally presented [ER 36]
the Eucharistic gifts.
(Plaintiff depo., 29:9-15, 31:20-23, 32:1-11).
Plaintiff’s Response and Supporting Evidence
UNCONTROVERTED
_________________________________________________
22. In regards to the 5th grade curriculum, Plaintiff’s
duties included incorporating the Catholic faith into
the students’ every day curriculum.
(Kreuper decl., ¶ 5; Plaintiff depo., 24:11-14; 24:2125:4; 26:18-22; 37:17-39:8, 40:4-18).
Plaintiff’s Response and Supporting Evidence
UNCONTROVERTED
_________________________________________________
23. Plaintiff taught the subject of Religion to her students four days per week.
(Plaintiff depo., 26:18-24).
Plaintiff’s Response and Supporting Evidence
UNCONTROVERTED
_________________________________________________
24. In fact, she was required to dedicate a minimum of
200 minutes every week to the subject of Religion.
(Kreuper decl. ¶ 7; Plaintiff depo., 30:3-31:9).

83a
Plaintiff’s Response and Supporting Evidence
UNCONTROVERTED
_________________________________________________
25. The curriculum for the Religion course was
grounded upon the norms and doctrines of the Catholic Faith, including, the sacraments of the Catholic
Church, social teachings according to the Catholic
Church, morality, the history of Catholic saints, Catholic prayers, and the overall * * *
Plaintiff’s Response and Supporting Evidence
UNCONTROVERTED
_________________________________________________
*

*

*

[ER 38]
29. She also gave weekly tests to her students from
this textbook.
(Plaintiff depo., 29:4-8).
Plaintiff’s Response and Supporting Evidence
UNCONTROVERTED
_________________________________________________
30. Moreover, Plaintiff was required to incorporate
Catholic values and traditions throughout all subject
areas, not just during the Religion course.
(Kreuper decl., ¶ 8; Plaintiff depo., 40:15-18).
Plaintiff’s Response and Supporting Evidence
UNCONTROVERTED
_________________________________________________
31. In fact, two standard requirements included in the
School’s teacher evaluation report were 1) incorporat-

84a
ing “signs, sacramental, traditions of the Roman Catholic Church in the classroom,” and 2) infusing “Catholic values through all subject areas.”
(Kreuper decl., ¶ 8; Plaintiff depo., 37:6-21, 38:17-39:8,
40:15-18).
Plaintiff’s Response and Supporting Evidence
CONTROVERTED to the extent that these were two
of thirty-four different requirements on the Elementary School Classroom Observation Report
Deposition of Mary Kreuper 89:24-90:16, Exh. 3 (“Elementary School Classroom Observation Report”); Deposition of Kristen Biel 37:6-37:25, Exh. 4 (“Elementary
School Classroom Observation Report”)
[DEFENDANT’S] RESPONSE: Objection: Mischaracterizes facts and evidence. This does not create a
genuine dispute as to any material fact because the
evidence presented by Plaintiff does not controvert the
moving party’s fact that the two abovementioned requirements were part of the teacher evaluation reports at St. James. Whether there were other requirements on the evaluation reports is not a material fact
and does not controvert Defendant’s fact. Plaintiff attempts to create the appearance of a controverted fact
when there isn’t one here. Evidence: (Kreuper decl.,
¶ 8; Plaintiff depo., 37:6-21, 38:17-39:8, 40:15-18).
_________________________________________________
*

*

*

85a
[ER 44]
*

*

*

48. Within two weeks of the 2013-2014 school year,
Sister Mary noticed that Plaintiff had difficulty keeping her classroom organized and controlling her classroom noise level.
(Kreuper depo., 72:16-21, 73:14-75:11, 76:23-77:5,
79:4-17, 101:23-102:5, 105:11-13; Plaintiff depo.,
57:24-58:4).
Plaintiff’s Response and Supporting Evidence
UNCONTROVERTED
_________________________________________________
49. Sister Mary often observed a chaotic classroom environment with clutter on and around students’ desks,
and students out of their seats talking with other students.
(Kreuper depo., 73:14-21, 74:18-75:11, 79:11-17,
101:23-102:5, 106:6-12).
Plaintiff’s Response and Supporting Evidence
UNCONTROVERTED
_________________________________________________
*

*

*

[ER 58]
76. By January 2014, Sister Mary met with Plaintiff
in her office once every week and sometimes twice a
week to discuss Plaintiff’s performance issues.
(Kreuper depo., 109:7-19; Kreuper decl., ¶ 15; Plaintiff
depo., 44:21-45:8).
Plaintiff’s Response and Supporting Evidence
CONTROVERTED

86a
The testimony cited by Defendant does not establish
that “performance issues” were the only thing discussed during these meetings as Sister Margaret testified that she wanted to “check in with her to see how
she was doing with regards to all the things” Sister
Margaret and Biel discussed.
Deposition of Mary Kreuper 109:16-109:19
For example, during these meetings, Biel and Sister
Margaret also discussed other things including Biel’s
efforts to make sure the students were “understanding
and learning” in her classroom which Sister Margaret
complimented.
Deposition of Kristen Biel 45:21-47:2.
Also during these meetings Biel and Sister Margaret
discussed the large number of students who were on
Biel’s honor roll during the first trimester.
Deposition of Mary Kreuper 83:24-86:14; 157:15157:23
[DEFENDANT’S] RESPONSE: Objection: Mischaracterizes facts and evidence, lacks foundation, speculative, argumentative. This does not create a genuine
dispute as to any material fact because the evidence
presented by Plaintiff does not controvert the moving
party’s fact that, by January 2014, Sister Mary met
with Plaintiff in her office once every week and sometimes twice a week to discuss Plaintiff’s performance
issues. Plaintiff’s evidence does not refute this fact.
[ER 59]
Whether other things were discussed during these
meetings is irrelevant and immaterial to the fact that
these meetings occurred every week and Plaintiff’s

87a
performance issues were discussed. Plaintiff’s belief
that Sister thought she was “doing a good job” is speculative and lacks foundation, and ultimately, does not
controvert the subject fact. Plaintiff attempts to create
the appearance of a controverted material fact when
there isn’t one here.
_________________________________________________
*

*

*

[ER 69]
99. She came to this decision based on the fact that
Plaintiff failed to follow Sister Mary’s guidance and
abide by the policies and procedures of the School despite their numerous counseling sessions.
(Kreuper depo., 119:16-120:7, 156:17-157:1).
Plaintiff’s Response and Supporting Evidence
CONTROVERTED to the extent that Biel testified
that she had her students work in the Simple Solutions books.
Deposition of Kristen Biel 43:17-44:3
[DEFENDANT’S] RESPONSE: This does not create
a genuine dispute as to any material fact because
Plaintiff does not offer any evidence that controverts
the fact that Sister Mary decided to not offer Plaintiff
an employment contract based on the fact that Plaintiff failed to follow Sister Mary’s guidance and abide
by the policies and procedures of the School despite
their numerous counseling sessions. Whether Plaintiff
had her students work in the Simple Solutions book
has no bearing on the subject fact. Plaintiff attempts

88a
to create the appearance of a controverted material
fact when there isn’t one here.
_________________________________________________
100. From January 2014 to April 2014, Sister Mary
told Plaintiff on several occasions that it would be difficult to offer her an employment contract for the following school year.
(Kreuper depo., 120:10-121:3, 130:10-17).
Plaintiff’s Response and Supporting Evidence
CONTROVERTED as Sister Margaret first testifies
that she told Biel a “couple of times” only later to say
that it was “several.”
Q. Did you ever tell Ms. Biel she would not be offered
a contract prior to her going out on leave?
A. Before May 22nd. I said a couple of times, “I’m going
to find it difficult to offer you a contract.”
Q. You said that a couple of times?
A. Couple of times, uh-huh.
Deposition of Mary Kreuper 120:14-120:20
Q. Did you ever tell Ms. Biel before the Monday after
Easter, when she told you she might have cancer that
she was not [ER 70] going to get a contract for the following school year?
A. I mentioned it on several occasions in early January, February when I met with her, that because of her
performance, that I was going to find it very difficult
to offer her a contract.
Deposition of Mary Kreuper 130:10-130:17.

89a
[DEFENDANT’S] RESPONSE: Objection: Mischaracterizes facts and evidence, argumentative. This does
not create a genuine dispute as to any material fact
because Plaintiff does not offer any evidence that controverts the fact that Sister Mary told Plaintiff on several occasions that it would be difficult to offer her an
employment contract for the following school year.
Plaintiff attempts to misconstrue Sister Mary’s testimony but alleging that “a couple of times” and “several
times” are conflicting testimony. This is disingenuous
and immaterial. Again, Plaintiff attempts to create the
appearance of a controverted material fact when there
isn’t one here.
_________________________________________________
101. In April 2014, following Easter break, Plaintiff
told Sister Mary that she believed she had breast cancer and would need to undergo some tests.
(Kreuper depo., 124:14-25).
Plaintiff’s Response and Supporting Evidence
CONTROVERTED to the extent that Biel had told Sister Margaret that she had cancer not that she believed
that she had cancer.
Deposition of Kristen Biel 90:23-91:25; Deposition of
Mary Kreuper 121:16-121:23; 124:14-124:25
[DEFENDANT’S] RESPONSE: Objection: Mischaracterizes facts and evidence, argumentative. This does
not create a genuine dispute as to any material fact
because whether Plaintiff told Sister Mary that she believed she had cancer or that she had cancer is immaterial. Again, Plaintiff attempts to create the appearance of a controverted material fact when there isn’t
one here.

90a
_________________________________________________
[ER 71]
102. Sister Mary was sympathetic to Plaintiff’s situation as she was also diagnosed with breast cancer in
2010, underwent a surgical procedure to treat her condition, and remained in continued treatment thereafter.
(Kreuper decl., ¶ 17).
Plaintiff’s Response and Supporting Evidence
UNCONTROVERTED
_________________________________________________
103. Plaintiff then informed Sister Mary that May 22,
2014 would be her last day of work so that she could
receive medical treatment.
(Kreuper depo., 127:3-4, 127:14-20).
Plaintiff’s Response and Supporting Evidence
CONTROVERTED as Biel continued to come to St.
James School to pick up papers to grade and check her
mailbox.
Deposition of Kristen Biel 23:19- 23:25; 105:25-106:18;
111:16-112:11
[DEFENDANT’S] RESPONSE: Objection: Mischaracterizes facts and evidence, argumentative. This does
not create a genuine dispute as to any material fact
because Plaintiff testified that her last day teaching
the 5th grade at St. James before receiving chemotherapy treatment was approximately May 23, 2014. Evidence: Biel depo., 104:23-105:6 (attached as Exhibit
C to the Fermin decl.). Whether Plaintiff continued to
grade papers and check her mailbox is immaterial and
has no bearing on the subject fact.

91a
_________________________________________________
104. Plaintiff continued to come to the School to pick
up papers to grade and check her mailbox and was
compensated until the end of the school year.
(Plaintiff depo., 23:9-18; 105:25-106:18).
Plaintiff’s Response and Supporting Evidence
UNCONTROVERTED
_________________________________________________
*

*

*

92a
Excerpts from Transcript of Deposition of
Kristen Biel
Kristen Biel v. St. James School,
No. 2:15-cv-04248 (TJH) (ASx)
(C.D. Cal. Nov. 10, 2015)
[ER 222]
[BY MS. FERMIN:]
Q. Are you claiming that St. James School owes you
unpaid wages?
A. Again, the same question. I’m sorry. I’m not sure.
I’d have to check my records.
Q. What records would you check?
A. My last paycheck stub.
Q. St. James is a Catholic School. Right?
A. Yes.
Q. Are you Catholic?
A. Yes.
Q. Was it your understanding that as a Catholic school
St. James had the goal of incorporating the faith into
their curriculum?
A. Yes.
Q. As a Catholic school St. James promoted and
developed the Catholic faith amongst its elementary
school students?
A. Are you asking me to agree?
Q. Is that your understanding?
A. Yes.

93a
Q. As a teacher at St. James your duties encompassed
promoting and furthering the Catholic faith amongst
your students?
MS. SHOEMAKER: Objection; vague and ambiguous.
BY MS. FERMIN:
[ER 223]
Q. Is that your understanding?
A. What do you mean by “promoting and furthering”?
Q. Incorporating it into the curriculum.
A. We prayed every day, yes.
Q. You prayed with your students?
A. Yes.
Q. In the morning or at the end of the day?
A. Both.
Q. Twice a day?
A. Yes.
Q. Did you teach your students any Catholic prayers?
A. They already know them. I didn’t need to teach
them anything. And I had prayer leaders. The prayers
that were said in the classroom were said mostly by
the students. We had prayer leaders. That was like a
job.
Q. Did you pray the Hail Mary with your students?
A. We did.
Q. The Lord’s Prayer?
A. We did, yes.
Q. Those are Catholic prayers, aren’t they?

94a
A. Hail Mary is.
Q. The Lord’s Prayer is not a Catholic prayer?
A. It’s a Christian prayer.
Q. But used in mass. Right?
A. Yes, but used in mass of other Christian
*

*

*

[ER 227]
Q. – of the Eucharist and confession?
A. That was in the book, yes. But the kids – I’m sorry.
Never mind.
Q. Did you give tests based on this religious workbook?
A. Yes.
Q. How often would you give tests?
A. Weekly.
Q. Did you ever attend mass with your students?
A. Yes.
Q. Where was mass held?
A. It was kind of a multi-purpose room.
Q. It was school mass, I’m assuming.
A. Yes. The church and the school are not connected.
Q. So it was a mass just with the St. James students?
A. Yes.
Q. Okay. How often did school mass take place?
A. Once a month.
Q. You attended the school mass with your students?

95a
A. Yes.
MS. FERMIN: I’m going to mark this as Exhibit No. 2.
(Exhibit 2 was marked for identification by the
*

*

*

[ER 229]
Q. Did you go over with your students on how to
present the gifts in mass?
A. As far as rehearsal? I don’t think we did rehearsal.
Most of them know how to do it already.
Q. So you did not go over how to present gifts?
A. I don’t remember. Maybe we quickly did something,
or not. I don’t remember. It wasn’t that often.
Q. Just for the record, when you say “gifts,” you are
referring to the Eucharist. Right?
A. Yes.
Q. How often would your class present the gifts at
school mass?
A. It was only twice a year.
Q. That they would present the gifts?
A. Yes, something like that. Not very often. It was kind
of a volunteer thing if the kids wanted to do it.
Q. During these school masses you mentioned that you
made sure that the kids were quiet and sitting down
and behaving during mass. Right?
A. Yes.
Q. Did your students pray during school mass?
A. Yes.

96a
Q. Did you pray too?
A. Yes.
*

*

*

[ER 277]
[Exhibit 1]
FACULTY EMPLOYMENT AGREEMENT—
ELEMENTARY
Exempt Full Time
Department of Catholic Schools
Archdiocese of Los Angeles
Name of School: St. James
Name of Teacher: Kristen Biel
Start Date: August 26, 2013 End Date: June 30, 2014
1. Term. The School (“School”) and you (the “Teacher”)
make this Employment Agreement (“Agreement”),
effective on the date below, for the work period shown
above (the “Term”), for you to serve as a member of our
faculty.
2. Philosophy. It is understood that the mission of
the School is to develop and promote a Catholic School
Faith Community within the philosophy of Catholic
education as implemented at the School, and the
doctrines, laws and norms of the Catholic Church. All
duties and responsibilities of the Teacher shall be
performed within this overriding commitment.
3. Duties. Your duties shall be those of a full-time or
part-time faculty member as specified in the
Compensation and Benefits Supplement which is an
integral part of this Agreement. You shall use your
best professional efforts and skills to perform your
dunes in a diligent, energetic, competent, and ethical

97a
manner, consistent with the School's established
philosophy and its policies, directives and expected
practices. You acknowledge and agree that the School
retains the right to operate within the philosophy of
Catholic education and to retain teachers who
demonstrate as ability to develop and maintain a
Catholic School Faith Community. You understand
and accept that the values of Christian charity,
temperance and tolerance apply to your interactions
with your supervisors, colleagues, students, parents,
staff and all others with whom you come in contact at
or on behalf of the School. Accordingly, you are
expected to model, teach, and promote behavior in
conformity to the teaching of the Roman Catholic
Church. Your duties shall include careful preparation
and planning for each class consistent with School and
departmental curriculum; diligent review and
evaluation
of
student
work
and
related
communication to students and parents; and
conferring with students, the administration, and
parents as needed regarding each student's progress
and development. You also shall attend faculty and
staff meetings and conferences, including those prior
to and following the School's regular academic year,
participate in School activities including School
liturgical activities, as requested, and complete other
duties as assigned. You agree to maintain the levels of
competency in subject matter, teaching methods,
classroom management, and student supervision
required by the School whether on your own initiative
or at the direction of the School. Your duties and job
assignment may be revised during the Term to meet
the School's needs. In that event the School's
operations are extended by reason of fire, disaster, act
of God, act of public authority or any other necessity

98a
or emergency cause, your services may be suspended
for the time period and rescheduled as needed to
complete the full School year.
4. Policies. You shall be familiar with, and comply
with the School's personnel policies and procedures as
they may be adopted or amended from time-to-time,
including policies in the fatuity handbook. You should
refer to such documents for information relating to
your employment, duties, and benefits. You shall be
familiar with, abide by, and assist and cooperate with
School administration in enforcing, the School's
policies for students and families whether outlined in
our handbook(s), our School policies, or other
directives and expected practices (together “Policies”).
You acknowledge that a copy of the faculty handbook
has been made available to you. You understand and
acknowledge that the policies do not constitute a
contractual agreement with yon.
5. Introductory Period. There is an introductory
period for a newly hired or transferred teacher. The
introductory period is a minimum of 90 calendar days,
and may be extended, in writing, for up to another 90
calendar days at the discretion of the principal. During
the introductory period this Agreement is at will;
therefore, it can be terminated at any time, for any
reason, without any notice. The Principal shall
complete a performance appraisal at the end of the
introductory period. Upon satisfactory completion of
[ER 278] the introductory period, employment will be
continued through any remaining term of this
Agreement except as noted under “Termination.”
6. Termination. Your employment, and this
Agreement, may be terminated during the Term

99a
without payment of salary or benefits beyond such
date of termination, for any of the following reasons:
I. The School may terminate for “cause,” without
any prior notice. Such “cause” shall be determined
by the School within its reasonable judgment and
shall include but not be limited to:
a) Failure to meet any of your duties as
described in Paragraphs 3 and 4 above.
b) Inappropriate physical or social contact with
students during school or otherwise.
c) Unprofessional or unethical conduct,
insubordination, unauthorized disclosure of
confidential information, or habitual or
unreasonable tardiness or absence from duties.
d) Any criminal, immoral or unethical conduct
that related to your duties as a teacher or brings
discredit upon the school or the Roman Catholic
Church.
e) Unauthorized possession of, or working
under the influence of, illegal drugs,
intoxicants, or alcohol.
f) Threatening or causing bodily harm to others
or other coercive and or intimidating acts, or
any verbal or physical harassment.
g) Having a diploma, credential, permit, license
or certificate denied, revoked or suspended.
h) Falsification of documents, false or
misleading information on an application,
resume, personnel record, professional or
character reference, academic transcript,
degree, or credential.

100a
i) Any other breach of the terms of this
Agreement.
II. Either you or the School may terminate this
Agreement without cause, for day reason within
the sole discretion of the terminating party, upon
30 calendar days’ prior written notice to the other
party in a manner that is consistent with
applicable law and on a time frame that is mutually
agreeable to you and the Principal. However, you
may not terminate employment under this
Agreement if the termination is effective during
the 30 days immediately prior to the beginning of
the school year except by mutual agreement with
the Principal. You acknowledge that a breach by
you of this provision is a grave ethical violation,
may harm the educational program for the
students and may cause expenses and damages to
the School.
III. The School may terminate your employment if
you are unable to perform the essential functions
of your position and reasonable accommodation is
not available or required under applicable laws.
The School's failure to invoke its right of termination
on one occasion for the occurrence of a matter
constituting a basis for discharge shall not affect the
right of the School to invoke discharge when the same
or a different basis for termination arises at a later
date.
7. Renewal. Future employment will be determined
on a year-to-year basis. It is agreed that you will give
written notice to the School, on or before April 1, 20__,
stating whether or not you wish to renew the
Agreement. The School will give you written notice, on

101a
or before May 15, 20__, stating whether or not it
intends to renew the Agreement for the following year.
In the absence of a notice by either party, this
agreement will lapse under its own terms. The
Principal alone, with the approval of the Pastor, has
the final and sole authority with respect to offering
contracts. This Agreement is contingent upon
sufficient School enrollment and the School's financial
condition. If the enrollment or the School's financial
condition does not justify the staffing, the Principal
has discretionary power to make decisions regarding
personnel reduction including, but not limited to,
modification or cancellation of this Agreement.
Notwithstanding this, if the School closes for any
reason, this Agreement will be considered terminated
on the date of the closure. You understand that tenure
is not granted by Archdiocesan Schools and upon
expiration or termination of the Agreement fox any
reason you shall have no right to [ER 280]
employment or preferential treatment regarding
employment at any other Archdiocesan School. There
is no implied duty by you or the School to renew this
Agreement, and no cause whatsoever is required by
either party for non-renewal. Any other arrangement
with respect to renewal, extension or duration of
employment is valid only if in writing, executed by you
and the Principal, with the approval of the Pastor.
8. Severability. If, for any reason, any one or more of
the provisions of this Agreement shall beheld or
deemed to be legally invalid or unenforceable, that
shall not have any effect on any of the other provisions
of this Agreement, all of which shall remain in full
force and effect.

102a
9. Entire Agreement. This agreement and the
attached Compensation and Benefits Supplement
contain the complete and entire agreement between
you and the School, and it supersedes all prior offers,
agreements, commitments, understandings, whether
oral or written. No changes to this Agreement maybe
made except by a document signed by you and the
Principal, with approval of the Pastor.
10. Applicable Law. This Agreement is entered into
under, and governed by, the laws of the State of
California.
11. Dispute Resolution and Grievances. You and
the School agree to attempt to resolve any disputes in
good faith. Any unresolved dispute between you and
the School arising out of or in any way related to your
employment or the termination thereof, shall be
subject to the Grievance Procedures promulgated by
the Archdiocesan Department of Catholic Schools and
no legal actions may be taken until all procedures have
been fully discharged. This clause is intended to
provide a speedy, economical and exclusive forum for
resolving claims; its existence shall not imply any
limitations upon the School’s right to manage its
affairs or terminate any employment.
12. Condition Precedent. It is agreed that a
condition precedent of this Agreement is the receipt of
the Criminal Record Summary report from the
California Department of Justice and the Federal
Bureau of Investigation, the completion of the I-9
Form from the Immigration and Naturalization
Service, and the completion of the other relevant
health and document requirements of the school.

103a
By: /s/ Sister Mary Margaret
Principal’s Signature
Sr. Mary Margaret
Print Name

5/28/2013
Date

I accept a position as Grade 5 Teacher at St. James
School School on each and all of the terms and
conditions set forth in the above Agreement and the
attached Compensation and Benefits Supplement.
By: /s/ Kristen Biel
Teacher’s Signature

Kristen Biel
Print Name

5/24/13
Date

Approval by Pastor required:
/s/ Msgr. Michael Meyers
Pastor’s Signature
Msgr. Michal Meyers
Print Name

5/28/13
Date

[ER 279]
FACULTY COMPENSATION AND
BENEFITS SUPPLEMENT
Elementary – Exempt Full Time
Department of Catholic Schools
Archdiocese of Los Angeles
13. School Day and Work Schedule.
Full Time Faculty
As a full time teacher, you understand that there will
be approximately 8 hours of work at the School each
regular class day. You will also devote time to other
assigned school responsibilities and in preparation
and assessment activities at hours not during the
regular class day. The School’s regular class day is
from 7:30 a.m. to 3:45 p.m.

104a
14. Base Compensation.
Base Salary: $

34,970

15. Additional Compensation For Designated
Responsibility (If Any):
Note: Calculations and Additional Compensation for
designated responsibility are based on anticipated
time commitment and skills.
Responsibility

Additional Compensation
$
$
$
$

Total Additional Compensation: $
16. Payment Schedule.
Compensation for all faculty will be distributed on a
[ ] semi-monthly [x] bi-weekly schedule beginning
August 30, 2013 and ending June 20, 2014.
[Handwritten Comment:] 34,970 ÷ 22
17. Education
Requirements:

and

Professional

Growth

In accordance with the regulations for salary
placement and professional growth requirements, you
agree that you will complete the following
requirements to be eligible to be offered an
employment agreement for the next school year.
[]
[ ] Enroll in California Teaching Credential Program.

[ ] Complete at least
Teaching Credential.

105a
units toward a California

[ ] California Teaching Credential program must be
completed by July 1, 20 for an Elementary School
Faculty Employment Agreement to be offered for the
20___ - 20___ academic year.
18. Available Benefits.
See Department of Catholic Schools Lay Employees
Benefit Guide
[ER 281]
Sick Days: Full-time Faculty: 10 days per school year.
/s/ Sister Mary Margaret
Principal’s Signature
Sr. Mary Margaret
Print Name
/s/ Kristen Biel
Teacher’s Signature

5/28/2013
Date
Kristen Biel
Print Name

Approval by Pastor required:
/s/ Msgr. Michael Meyers
Pastor’s Signature
Msgr. Michael Meyers
Print Name

5/28/13
Date

5/24/13
Date

106a
[ER 282]
[Exhibit 4]
Archdiocese of Los Angeles
Elementary School Classroom
Observation Report
Teacher: Kristen
Principal: Sr. M
Grade: 5
Subject: Math
Innovating
Adjusts
and creates
new
strategies
for unique
student
needs and
situations
during the
lesson.

School: St. James
City: Torrance
School Year: 2013-14
Date: Nov. 12, 2013

Implementing
Uses
strategies at
appropriate
time, in the
appropriate
manner.

Not
Exhibiting
Attempts
Strategy
to use
was called
strategy
for but not
but uses it exhibited.
incorrectly
or at the
wrong
time.
Emerging

WCEA (Catholic Identify Factors) Check if observed
[ ] Innovating [ ] Implementing [ ] Emerging [ ] Not
Exhibiting
[x] There is visible evidence of signs, sacramental,
traditions of the Roman Catholic Church in the
classroom.
[x] Curriculum includes Catholic values infused
through all subject areas. [Handwritten Comment:]
Respect—
[x] Integrates Schoolwide Learning Expectations

107a
Observation Comments: _______
Objective to be Observed: California Standards for
the Teaching Profession
For the following 5 standards, check if observed
Standard 1: Engaging and Supporting All Students
in Learning
[ ] Innovating [ ] Implementing [ ] Emerging [ ] Not
Exhibiting
[x] 1.1 Using knowledge of students to engage them in
learning
[ ] 1.2 Connecting learning to students’ prior
knowledge, backgrounds, life experiences, and
interests
[ ] 1.3 Connecting subject matter to meaningful, reallife contexts
[x] 1.4 Using a variety of instructional strategies,
resources, and technologies to meet students’ diverse
learning needs
[x] 1.5 Promoting critical thinking through inquiry,
problem solving, and reflection
[x] 1.6 Monitoring student learning and adjusting
instruction while teaching
Observation Comments: _______
Standard 2: Creating and Maintaining Effective
Environments for Student Learning
[ ] Innovating [ ] Implementing [ ] Emerging [ ] Not
Exhibiting

108a
[x] 2.1 Promoting social development and
responsibility within a caring community where each
student is treated fairly and respectfully
[x] 2.2 Creating physical or virtual learning
environments that promote student learning, reflect
diversity, and encourage constructive and productive
interactions among students [Handwritten Comment:]
with teacher
[x] 2.3 Establishing and maintaining learning
environments that are physically, intellectually, and
emotionally safe [Handwritten Comment:] Very good—
[x] 2.4 Creating a rigorous learning environment with
high expectations and appropriate support for all
students
[x] 2.5 Developing, communicating, and maintaining
high standards for individual and group behavior
[x] 2.6 Employing classroom routines, procedures,
norms, and supports for positive behavior to ensure a
climate in which all students can learn [Handwritten
Comment:] There is a variety of work displayed.
*

*

*

109a
[ER 565]
[Exhibit 10]
Faculty/Staff Handbook
St. James School
4625 Garnet Street
Torrance, CA 90503
*

*

*

[ER 587]
STAFF GUIDELINES AND RESPONSIBILITIES
*

*

*

Personal Example
Staff members at St. James School are expected to
reflect a positive attitude and to be models of Christian
virtue who give fine personal example at all times.
They are expected to maintain professional excellence
and personal integrity, just as we would like our
students to strive for these.
*

*

*

School Masses
School-wide and grade level Masses are scheduled
throughout the year. Teachers prepare their students
to be active participants at Mass, with particular
emphasis on Mass responses.
Each class participates in a special way at one Sunday
liturgy during the school year (at the 10:00 AM Mass
on the first Sunday of the month). Students are
prepared for special participation in that Mass.
Teachers are encouraged to attend this Mass each
month, especially when their students are
participating.

110a
School Day Masses at St. James Church /Drivers
On occasion students attend Mass at St. James
Church (e.g., before rehearsals for the Christmas
Program and Spring Sing). At these times,
students are dropped off at Church at 7:45 a.m.
and need transportation back to school at
approximately recess time. Teachers and/or room
parents need to coordinate parent drivers for their
students. A permission slip is signed at the
beginning of the school year to cover all trips from
Church.
*

*

*

[ER 589]
Daily Prayer
The school day should begin and end with prayer. A
prayer should also be said before and after lunch.
Students should know and frequently use the prayers
in the back of their religion book.
Students should also know the following prayers and
be prepared to pray them at the school’s morning
assembly. See end pages of this handbook.
September
October
November
December
January
February
March
April
May
June

Message from Jesus
Angel of God
Prayer of the Faithful Departed
Hail Mary
Act of Faith
Act of Love
Act of Hope
Prayer of St. Francis
One decade of the Rosary
Apostle’s Creed
*

*

*

111a
Excerpts from Transcript of Deposition of
Janell O’Dowd
Volume I
Kristen Biel v. St. James School,
No. 2:15-cv-04248 (TJH) (ASx)
(C.D. Cal. Jan. 28, 2016)
[ER 834] [Tr. 20]
*

*

*

BY MS. SHOEMAKER:
Q. Do you remember the school year when Ms. Biel
began teaching the fifth grade, what year that was?
A. No. It was – well, what – like was it three years ago?
One, two, three. I don’t remember.
Q. We’ve alleged that it occurred in 2013 to 2014.
A. Okay.
Q. Does this seem about right?
A. Uh-huh.
Q. Yes?
A. Yes.
Q. And at that time, M[redacted] was in her class; is
that correct?
A. Yes.
Q. And during that 2013 to 2014 school year, did you
personally observe any problems with Ms. Biel’s
teaching?
MR. VASIN: I’m just going to object as overly broad,
vague, ambiguous.
THE WITNESS: Yes.

112a
[ER 835] [Tr. 21]
BY MS. SHOEMAKER:
Q. And what were those issues?
A. One, their calculators were being used for math. I
had a problem with study guides not being corrected.
I had a problem with the math workbook not being
used. I had a problem with the use of the Simple
Solution math workbooks, the classroom environment
and I guess that the work not being challenging.
Q. Any other problems you can think of?
A. Not at this second.
Q. You said one of the problems was that they were
using calculators for math?
A. Yes.
Q. What’s the issue with that?
A. Long division. So this is – I mean, fifth grade
usually calculators aren’t used. So it was just the type
of problems the calculators were being used for.
Q. And then you said something about having issues
with the study guides?
A. Uh-huh.
Q. What do you mean by that?
A. The students were given study guides after they
completed a chapter. She was passing out the study
guides, giving them class time to finish them but then
never going back to correct the answer. So then when
my [Tr. 22] daughter would bring the study guides to
prepare for a test, they didn’t have the correct answers
on it. So then as a present, I was going back looking in

113a
the book trying to fix – find the correct answers so that
I could help her study.
Q. And what book were you looking in?
A. This was social studies.
Q. A teacher book? Your daughter’s school book?
A. No, my daughter’s school book.
Q. To see – to see if the answers she had in the study
guide was correct?
A. Correct.
Q. So it’s not like you had the teacher manual readily
available?
A. No.
Q. And then you mentioned an issue with the math
workbooks?
A. Uh-huh.
Q. What was that?
A. Our math workbook supplements our textbook and
she was not using the math book. So they weren’t
having homework to reinforce the math skills that
they were being taught during the day.
Q. So the issue was that the supplements weren’t
being used?
[Tr. 23]
A. Correct.
Q. And what about the Simple Solutions books?
A. She – it’s a consumable math workbook and they
were not using it as a consumable. So they were using
a piece of paper but then she would go – so the kids

114a
were doing it on paper – So then when the kids would
have a test on it, there was no work in the workbook
for the parents to review or you’d -Q. Go ahead.
A. So you couldn’t find your child’s mistake or help
them with a mistake.
Q. And what’s a consumable?
A. You write on it. So like your textbook you would not
write in. We can’t – we don’t highlight our books but a
workbook is consumable because you write in it.
Q. And if it was on loose leaf paper, it’d be hard to keep
all that work together?
A. Uh-huh, and I don’t even think they had – they got
those back.
Q. The?
A. The loose leaf papers.
Q. And you mentioned you had an issue with the
classroom environment?
A. Uh-huh.
[Tr. 24]
Q. And what do you mean by that?
A. Very loud, noisy, sometimes I’d walk by and there’d
be kids just, you know, walking or crawling on the
floor. And just with their desks, they had taped pencil
holders and things around their desk and just books
on the – in the aisle.
Q. How close was your classroom to Ms. Biel’s
classroom?

115a
A. We were separated by let’s see, one, two, I think
three classrooms.
Q. Could you hear noise from her classroom when you
were in your classroom?
A. No.
MR. VASIN: You answered the question.
THE WITNESS: Okay.
BY MS. SHOEMAKER:
Q. So when you state that the classroom was loud or
noisy, you only heard this when you walked by the
classroom; is that correct?
A. When I walked by or when I was in the computer
lab.
Q. And where is the computer lab in reference to her
classroom?
A. Right next door.
*

*

*

[ER 836] [Tr. 37]
Q. Any other students?
A. Not that I remember.
Q. And how many conversations did you have with
A.W. about issues with Ms. Biel’s teaching?
A. I drove to soccer practice with them in my car. So if
I had – if M[redacted] came home using her calculator
in the car, I would say, is it true that you’re allowed to
use your calculator? And then how – how are you able
to use your calculator? The kids would talk about
things that happened during the day. So I would just

116a
get in on the conversation and ask questions about,
you know, the events.
Q. Was F.D. also in the car with these drives to soccer
practice?
A. Not all of them.
Q. Is that where the conversations with F.D. would
have taken place?
A. Yes.
Q. Do you recall discussing any issues, other than the
one you previously told me about?
A. No.
Q. And approximately how many times did you have
these conversations?
A. I don’t know. September, October, November.
[Tr. 38] Maybe 12 conversations. If I drove – if I had
to drive extra carpool, I mean, there would have been
more.
Q. Did you have -- ever have any conversations about
the issues with Ms. Biel’s teaching with Sister Mary
Margaret?
A. Yes.
Q. And approximately how many conversations did
you have with her?
A. Probably about three.
Q. Do you remember when the first conversation took
place?
A. It would have been sometime in the first trimester.
Q. And what was said in that conversation?

117a
A. I don’t – I don’t recall what specifically we talked
about.
Q. What do you recall generally speaking about?
A. I know I spoke to her about three things. We talked
about the math workbooks not being used. I talked to
her about M[redacted]’s progress report. I discussed
the study guides with her and the math workbook.
Q. When do progress reports come out for the
students?
A. Midway through the trimester. The first one comes
out about Thanksgiving.
[Tr. 39]
Q. When does –
A. Progress report or report card?
Q. Progress report.
A. Progress report. Sorry. It would be six weeks into
school.
Q. So the first conversation took place approximately
six weeks after the start of the school year?
A. I think I said first trimester that we – I met with
her the first trimester, during the first trimester. So
that would have been before Thanksgiving.
Q. But you spoke to her about M[redacted]’s progress
report?
A. That was later in the year.
Q. So I’m just right now talking about this first
conversation you had with her.
A. Okay.

118a
Q. What was first discussed at the first – during the
first conversation?
A. I don’t remember the specifics.
Q. So the issues – so –
A. If I – no. It’s probably the math workbook.
MR. VASIN: Well –
BY MS. SHOEMAKER:
Q. I don’t want you to guess.
[Tr. 40]
MR. VASIN: Don’t guess.
THE WITNESS: Then, no, I don’t.
BY MS. SHOEMAKER:
Q. So you recall having approximately
conversations with Sister Mary Margaret?

three

A. Uh-huh.
Q. Yes?
A. Yes.
Q. And during those three conversations, within at
least one conversation, you discussed the math
workbooks, M[redacted]’s progress report, study
guides and math workbook?
A. Yes.
Q. You don’t recall specifically which issues were
discussed in which conversation?
A. No.
Q. And when you refer to M[redacted]’s progress
report, are you referring to her first progress report?

119a
A. I’m not positive.
Q. And what would your problem have been with
M[redacted]’s progress report?
A. She had a behavior check.
*

*

*

120a
Excerpts from Transcript of Deposition of
Kathleen McDermott
Kristen Biel v. St. James School,
No. 2:15-cv-04248 (TJH) (ASx)
(C.D. Cal Dec. 3, 2015)
[ER 839]
*

*

*

Q. Okay: When does the school year start?
A. August, end of August we start with meetings.
Q. And it goes to what month?
A. Halfway through June.
Q. During Kristen Biel’s first year teaching as a fifth
grade teacher, did you meet once a week from August
through June with her?
A. No, she didn’t finish out the year.
Q. Until she left in May, did you meet with her once
per week?
A. Yes, unless it wasn’t possible because of different
schedules people had.
Q. From that time August through May that you were
meeting with her once per week, was there any specific
topic that was often discussed or a certain issue that
[ER 840] she had that you had to go over multiple
times with her?
A. I talked with her at the beginning of the year about
behavior problems that I knew she was having, you
know. I asked her questions because she had come to
me about things. The other one was her classroom
maintenance.

121a
Q. When you say behavior problems, what do you
mean?
A. The children were often out of control.
Q. What do you mean by out of control?
A. Not working, sometimes outside of the classroom,
having behavior problems, different things.
Q. Would they ever get in physical altercations?
A. No, but that’s not—that doesn’t happen at our
school, so. . .
Q. What do you mean, then, with problems outside the
classroom?
A. Where the children wouldn’t be following rules and
there would be different problems that I saw, other
people saw, and I talked with her about them.
*

*

*

